<html>
<title> - CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 108-588]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 108-588
 
  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

=======================================================================


                                HEARING

                               before the

                    SELECT COMMITTEE ON INTELLIGENCE

                                 of the

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                               __________

                             SECOND SESSION

                               __________

  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

                               __________

                           FEBRUARY 24, 2004





                  U.S. GOVERNMENT PRINTING OFFICE
95-393                    WASHINGTON : 206
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE

                     PAT ROBERTS, Kansas, Chairman
          JOHN D. ROCKEFELLER IV, West Virginia, Vice Chairman
ORRIN G. HATCH, Utah                 CARL LEVIN, Michigan
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
CHRISTOPHER S. BOND, Missouri        RON WYDEN, Oregon
TRENT LOTT, Mississippi              RICHARD J. DURBIN, Illinois
OLYMPIA J. SNOWE, Maine              EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                JOHN EDWARDS, North Carolina
SAXBY CHAMBLISS, Georgia             BARBARA A. MIKULSKI, Maryland
JOHN W. WARNER, Virginia
                   BILL FRIST, Tennessee, Ex Officio
              THOMAS A. DASCHLE, South Dakota, Ex Officio
                                 ------                                
                      Bill Duhnke, Staff Director
               Andrew E. Johnson, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held in Washington, D.C., February 24, 2004..............     1
Statement of:
    Jacoby, Vice Admiral Lowell E., USN, Director, Defense 
      Intelligence Agency........................................    49
    Mueller, Hon. Robert S., III, Director, Federal Bureau of 
      Investigation..............................................    38
    Tenet, Hon. George J., Director, Central Intelligence Agency.     5


   HEARING ON CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE 
                             UNITED STATES

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2004

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
Room SD-106, Dirksen Senate Office Building, the Honorable Pat 
Roberts, (Chairman of the Committee), presiding.
    Committee Members Present: Senators Roberts, Dewine, Bond, 
Lott, Snowe, Hagel, Chambliss, Warner, Rockefeller, Levin, 
Feinstein, Durbin, Bayh, and Mikulski.
    Chairman Roberts. The Committee will come to order.
    The Senate Select Committee on Intelligence today meets in 
open session to conduct the public segment of its annual 
worldwide threat hearing. It has become the practice of the 
Committee to begin its annual oversight of the U.S. 
Intelligence Community with a public hearing so that our 
members and the public will have the benefit of the 
Intelligence Community's best assessment of the current and 
projected national security threats to the United States.
    Our witnesses today are the Director of Central 
Intelligence, Mr. George Tenet; the Director of the Federal 
Bureau of Investigation, Mr. Robert Mueller; and the Director 
of the Defense Intelligence Agency, Vice Admiral Lowell Jacoby. 
The Committee thanks all of our distinguished witnesses for 
being here.
    The witnesses have been asked to provide a comprehensive, 
unclassified assessment of the nature and extent of the current 
and projected national security threats to the United States. 
The witnesses have also been asked to highlight the significant 
developments in these areas that have occurred since this 
Committee's last worldwide threat hearing last February.
    Obviously, this past year has been extremely eventful. 
While we have made significant progress on the war on terror 
and countering the proliferation of weapons of mass 
destruction, other threats remain and new threats do continue 
to emerge.
    Saddam Hussein's reign of terror has rightfully been put to 
an end, yet peace and stability in Iraq are still threatened by 
continued attacks. Libya has renounced its weapons of mass 
destruction programs and permitted inspections that are 
international, while other nations, such as Iran, Syria and 
North Korea, refuse to dismantle ongoing weapons programs.
    Non-state purveyors of WMD technologies, such as A.Q. Khan, 
have been identified, yet expansion of these deadly weapons 
remains one of the greatest threats to our national security.
    Although it did not get much press attention, the 
President's February 11 speech at the National Defense 
University announced new measures to counter the threat of the 
proliferation of weapons of mass destruction. The President 
called for the modernization of these laws, the restriction on 
sales of nuclear technology and efforts to secure and destroy 
nuclear materials. Taken together with the Proliferation 
Security Initiative announced in May, I think it is fair to say 
that the President has suggested a solid plan to reduce the 
threat of these dangerous weapons.
    The recent revelations about A.Q. Khan's illicit sale of 
nuclear weapons technology does demonstrate clearly how 
accurate and credible intelligence can be used to advance our 
fight against the expansion of these weapons.
    Our Intelligence Community is not perfect. They are not 
capable of carrying the entire burden, nor should we ask them 
to. As the President has pointed out, it is going to take an 
international commitment to effectively deal with both WMD 
expansion and international terrorists.
    While terrorists from the al-Qa'ida and other like-minded 
groups are on the run, they continue to target our U.S. 
interests at home and abroad. And in our own hemisphere, 
despite past U.S. efforts, the impoverished nation of Haiti is 
again descending into civil strife.
    In short, despite our hard-fought victories, the world 
remains a very dangerous place. This morning, the Committee 
will explore these threats and others in an unclassified 
setting. This afternoon, we will conduct a closed session to 
discuss any matters that are classified.
    Now, before we turn to our witnesses, I would like to point 
out that for the last eight months, this Committee has been 
engaged in a comprehensive review of the intelligence 
underlying the Intelligence Community's assessments regarding 
Iraq's weapons of mass destruction and its ties to terrorist 
groups. We have recently begun the process of reviewing the 
draft language for what will be the first of at least two 
reports.
    In October of last year, Director Tenet asked for an 
opportunity to appear before our Committee before we completed 
our work. He will have that opportunity next Thursday in a 
closed session of the Committee. I anticipate that it will be 
the first in a number of appearances as the Committee does 
finalize its reports and begins to consider the recommendations 
for change.
    With this in mind, I would like to suggest to all members 
that this is a hearing on the current global threat. There will 
be many opportunities in the coming weeks for Committee members 
to receive testimony and question any number of witnesses about 
the prewar intelligence in regard to Iraq. We have invited our 
witnesses here today to address the current threats and so I am 
suggesting that members please keep their questions focused on 
that topic.
    Before turning to Director Tenet for his testimony, I turn 
to Senator Rockefeller for his opening statement.
    Mr. Vice Chairman.
    Vice Chairman Rockefeller. Thank you very much, Mr. 
Chairman. And I join you in welcoming our witnesses today. 
There were, I thought, to be four, but INR, evidently, was not 
able to work it out, I think due to a late invitation which is, 
I think, noteworthy, but not worth an opening statement.
    Chairman Roberts. Senator, would you yield on that point?
    Vice Chairman Rockefeller. Of course.
    Chairman Roberts. We have asked INR to come. We asked them 
previously to come. They felt that the testimony by the DCI 
would cover their responsibilities. They have an acting 
director.
    When we asked them again to come just a few days ago, 
knowing of some interest in the press about that, they 
indicated that they would prefer not to appear and said, again, 
that the DCI would cover their responsibilities. It is not any 
situation where they were not asked to come.
    Vice Chairman Rockefeller. Well, I'll let that statement 
stand for the Chairman, who I greatly respect.
    The question I'm wrestling with this morning is whether, in 
fact, we are as a country and as a people safer today than we 
were when the three of you were here a year ago. We fought a 
war against a viciousdictator, but bringing security to Iraq 
remains elusive and we're paying a very high price in blood and 
resources.
    We're also paying a high price in world public opinion, 
which is important, not just for its own sake but in order to 
obtain the cooperation necessary to achieve greater security. I 
worry that rapidly-declining support for the U.S. could further 
undermine stability in the Middle East and stimulate the 
recruitment of a new generation of anti-American jihadists.
    Clearly, we have enjoyed progress in broadening the 
international coalition against terrorism and we have seriously 
disrupted al-Qa'ida's structure and operations, though they are 
certainly by no means inactive for the future.
    But the underlying strategic concerns, in terms of regional 
demographics, economic opportunity, education, ideologies, 
still appear to be moving generally in the wrong direction, 
according to this Senator, in most of the developing world. 
Rapid population growth and uneven economic development in the 
Third World are straining the fabric of many nations. Add that 
to the AIDS crisis, and much of sub-Saharan African seems to 
teeter on the verge of anarchy, much as we are seeing in Haiti 
today. Liberia avoided a complete collapse last year; I'm not 
quite sure how, whether it was us or the Nigerians or some 
combination thereof, or whether we may simply have postponed 
the inevitable by not addressing that.
    The situation in Latin America, while not as dire, except 
for the case of Colombia, is very worrisome. Many Latin 
American countries are unable to keep pace with globalization 
and there is a growing disparity, as everywhere, between rich 
and poor.
    While we're focused on the Middle East today, the potential 
for violence and the strengthening of radical movements in 
other regions seems to be increasing. Economic and political 
desperation, combined with increasing resentment of U.S. 
economic might, our cultural influence, military supremacy, 
make us the target of much of the world's anger; we know that.
    That anger spills over to leaders who cooperate with the 
United States, adding to the instability in some of the most 
dangerous regions of this world. People are angry at us and 
they're angry at their leaders for following along with us or 
they're angry at their leaders just because they're angry at 
their leaders because they're not doing anything to help them.
    Whatever the combination, it doesn't bode well. These are 
not immediate, but they are growing threats that I think we 
need to be addressing. And I fear that we are not addressing 
them, and that we cannot--and I hope our witnesses will respond 
to this--our intelligence and military are structured in a way 
which I'm not sure of their capacity to expand with experienced 
personnel much farther or in time to deal with what we're going 
to have to deal with.
    Our intelligence, law enforcement agencies are doing a good 
job of capturing al-Qa'ida operatives and disrupting terrorist 
plots. The Intelligence Community did a commendable job, in my 
view, in supporting our troops in the invasion of Iraq. But our 
success in supporting tactical operations is of little value if 
we fundamentally misread strategic threats and challenges.
    And I close by forming it this way. It now appears that 
Iran has had a much more advanced WMD capability and much 
closer links to dangerous terrorists than Saddam Hussein ever 
did. But our credibility has suffered because we have not found 
WMD in Iraq, and I fear we now will find it much harder to 
build international consensus, support to deal with Iran, 
should that be necessary, and other countries of such concern, 
for example, North Korea.
    I look forward to hearing from our witnesses and I thank 
the Chairman.
    Chairman Roberts. Senator Warner. Members will have six 
minutes.
    I beg your pardon. It might be certainly more acceptable to 
give the Director his opportunity to make his testimony first 
along with Mr. Mueller and Admiral Jacoby before we turn to 
Senator Warner, although I'm sure he could entertain us for at 
least 30 minutes. [Laughter.]
    I would now recognize the DCI, Mr. George Tenet.
    [The prepared statement of Director Tenet follows:]
    [GRAPHIC] [TIFF OMITTED] 95393A.001
    
    [GRAPHIC] [TIFF OMITTED] 95393A.002
    
    [GRAPHIC] [TIFF OMITTED] 95393A.003
    
    [GRAPHIC] [TIFF OMITTED] 95393A.004
    
    [GRAPHIC] [TIFF OMITTED] 95393A.005
    
    [GRAPHIC] [TIFF OMITTED] 95393A.006
    
    [GRAPHIC] [TIFF OMITTED] 95393A.007
    
    [GRAPHIC] [TIFF OMITTED] 95393A.008
    
    [GRAPHIC] [TIFF OMITTED] 95393A.009
    
    [GRAPHIC] [TIFF OMITTED] 95393A.010
    
    [GRAPHIC] [TIFF OMITTED] 95393A.011
    
    [GRAPHIC] [TIFF OMITTED] 95393A.012
    
    [GRAPHIC] [TIFF OMITTED] 95393A.013
    
    [GRAPHIC] [TIFF OMITTED] 95393A.014
    
    [GRAPHIC] [TIFF OMITTED] 95393A.015
    
    [GRAPHIC] [TIFF OMITTED] 95393A.016
    
    [GRAPHIC] [TIFF OMITTED] 95393A.017
    
    [GRAPHIC] [TIFF OMITTED] 95393A.018
    
    [GRAPHIC] [TIFF OMITTED] 95393A.019
    
    [GRAPHIC] [TIFF OMITTED] 95393A.020
    
    [GRAPHIC] [TIFF OMITTED] 95393A.021
    
    [GRAPHIC] [TIFF OMITTED] 95393A.022
    
    [GRAPHIC] [TIFF OMITTED] 95393A.023
    
    [GRAPHIC] [TIFF OMITTED] 95393A.024
    
STATEMENT OF THE HONORABLE GEORGE J. TENET, DIRECTOR OF CENTRAL 
                          INTELLIGENCE

    Director Tenet. Thank you, Mr. Chairman.
    Last year I described a national security environment that 
was significantly more complex than at any time during my 
tenure as Director of Central Intelligence. The world I'll 
discuss today is equally, if not more, complicated and fraught 
with dangers for American interests, but one that also holds 
opportunities for positive change.
    I want to begin with terrorism, with a stark bottom line. 
The al-Qa'ida leadership structure we charted after September 
11th is seriously damaged, but the group remains as committed 
as ever to attacking the American homeland. As we continue to 
battle against al-Qa'ida, we must overcome a movement--a global 
movement infected by al-Qa'ida's radical agenda.
    In the battle, we're moving forward in our knowledge of the 
enemy, his plans and capabilities, and what we've learned 
continues to validate my deepest concern that this enemy 
remains intent on obtaining and using catastrophic weapons. 
Military and intelligence operations, as you both have noted, 
by the United States and its allies overseas have degraded the 
group. Local al-Qa'ida cells are forced to make their own 
decisions because of disarray in the central leadership.
    Al-Qa'ida depends on leaders who not only direct attacks, 
but who carry on the day-to-day tasks that support operations. 
Over the past 18 months, we have killed or captured key al-
Qa'ida leaders in every significant operational area--
logistics, planning, finance, training--and have eroded the key 
pillars of their organization, such as the leadership in 
Pakistani urban areas and operational cells in the al-Qa'ida 
heartland of Saudi Arabia and Yemen.
    The list of associates on page two, many of you know--
Khalid Shaykh Mohammed, Abu Zubaydah, Hasan Ghul, Hambali and 
others. We are creating large and growing gaps in al-Qa'ida's 
hierarchy, and unquestionably bringing these key operators to 
ground disrupted plots that would otherwise have killed 
Americans.
    Meanwhile, al-Qa'ida central continues to lose operational 
safe havens, and bin Laden has gone deeper underground. Al-
Qa'ida's finances have been squeezed, and we're receiving a 
broad array of help from our coalition partners who have been 
central to our efforts against al-Qa'ida.
    Since the May 12 bombings, the Saudi government has shown 
an important commitment to fighting al-Qa'ida in the Kingdom, 
and Saudi officers have paid with their lives. There's great 
cooperation in the rest of the Arab world. President Musharraf 
remains a courageous and indispensable ally who has become the 
target of assassins for the help he's given us. Our European 
partners are working closely with us to unravel and disrupt 
networks of terrorists planning chemical and biological and 
conventional attacks in Europe.
    So there are notable strides, but don't misunderstand me: 
I'm not suggesting al-Qa'ida is defeated. It is not. We're 
still at war. This is a learning organization that remains 
committed to attacking the United States, its friends and its 
allies.
    Successive blows to the central leadership have transformed 
the organization into a loose collection of regional networks 
that operate more autonomously. These regional components have 
demonstrated their operational prowess in Morocco, Kenya, 
Turkey, Jordan, Saudi Arabia and other countries, and al-Qa'ida 
seeks to influence these regional networks with operational 
training, communications and money. For example, we know that 
Khalid Shaykh Mohammed sent $50,000 to Hambali in Southeast 
Asia to further his operations.
    You should not take the fact that these attacks occurred 
abroad to mean that the threat to the U.S. homeland has waned. 
As al-Qa'ida and associated groups undertook these attacks 
overseas, detainees consistently talk about the importance the 
groups still attach to striking the main enemy, the United 
States.
    Across the operational spectrum--air, maritime, special 
weapons--we have time and again uncovered plots that are 
chilling. On aircraft plots alone, we have uncovered new plans 
to recruit pilots and to evade new security measures in 
Southeast Asia, the Middle East and Europe.
    Even catastrophic attacks on the scale of 9/11 remain 
within al-Qa'ida's reach. Make no mistake: These plots are 
hatched abroad but they target U.S. soil and those of our 
allies.
    So far, I've talked to you about al-Qa'ida, but it's not 
the limit of the terrorists threat worldwide. They've infected 
others with its ideology, which depicts the United States as 
Islam's greatest foe. The steady growth of Usama bin Laden's 
anti-American sentiment through the wider Sunni extremist 
movement and the broad dissemination of al-Qa'ida's destructive 
expertise ensure that a serious threat will remain for the 
foreseeable future with or without al-Qa'ida in the picture.
    Even so, as al-Qa'ida reels from our blows, other extremist 
groups within the movement it influenced have become the next 
wave of terrorist threat. Dozens of such groups exist. I've 
identified the Zarqawi network, the Ansar al-Islam network in 
Iraq, the Libyan Islamic Fighting Group and the Islamic 
Movement of Uzbekistan.
    Mr. Chairman, with regard to CBRN, acquiring these kinds of 
weapons we know remains a religious obligation in bin Laden's 
eyes, and al-Qa'ida and more than two dozen other terrorist 
groups are pursuing CBRN materials. We particularly see a 
heightened risk of poison attacks. Contemplated delivery 
methods to date have been simple, but this may change as non-
al-Qa'ida groups share information on more sophisticated 
methods and tactics.
    Over the last year, we've also seen an increase in the 
threat of more sophisticated chemical, biological, radiological 
and nuclear weapons. For this reason, we take very seriously 
the threat of a CBRN attack. Extremists have widely 
disseminated assembly instructions for an improvised chemical 
weapon, using common materials that could cause a large number 
of causalities in a crowded and closed area.
    Although gaps in our understanding remain, we see al-
Qa'ida's program to produce anthrax as one of the most 
immediate terrorist CBRN threats that we are likely to face. 
Al-Qa'ida continues to pursue its strategic goal of obtaining a 
nuclear capability. It remains interested in dirty bombs. 
Terrorist documents contain accurate views of how such weapons 
would be used.
    Mr. Chairman, I want to turn to Iraq for a detailed 
discussion. We're making significant strides against the 
insurgency and terrorism, but former regime elements and 
foreign jihadists continue to pose a serious threat to Iraq's 
new institutions and to our own forces. At the same time, 
sovereignty will be turned over to an interim government in 
Iraq on July 1, although the structure and mechanism for 
determining this remain unresolved.
    The emerging Iraqi leadership will face many pressing 
issues, among them organizing national elections, integrating 
the Sunni minority into the political mainstream, managing 
Kurdish autonomy in a federal structure and the determining 
role of Islam in an Iraqi state.
    Meanwhile, Mr. Chairman, the important work of the Iraqi 
Survey Group in the hunt for the Iraq's weapons of mass 
destruction continues. We must explore every avenue in our 
quest to understand Iraq's programs of concern for the 
possibility that materials, weapons or expertise might fall 
into the hands of insurgents, foreign states or terrorists. And 
as you know, we will talk about this subject at length next 
week.
    Despite progress in Iraq, the overall security picture 
continues to concern me. Saddam is in prison and the coalition 
has killed or apprehended all but 10 of his 54 key cronies, and 
Iraqis are taking an increasing role in their own defense, with 
many now serving in various new police, military and security 
forces.
    The violence continues. The daily average number of attacks 
on U.S. and coalition military forces has dropped from its 
November peak, but is similar to that of August. And many other 
insurgent and terrorist attacks undermine the stability by 
striking at those--seeking to intimidate those Iraqis willing 
to work with the coalition. The insurgency that we face in Iraq 
comprises multiple groups with different motivations, but with 
the same goal--driving the U.S. and our coalition partners from 
Iraq.
    Saddam's capture was a psychological blow that took some of 
the less committed Ba'athists out of the fight. But a hard core 
of regime elements, Ba'ath Party officials, military, 
intelligence and security officers are still organizing and 
carrying out attacks. Intelligence has given us a good 
understanding of the insurgency at the local level, and this 
information is behind the host of successful raids you've read 
about in the newspapers.
    U.S. military and intelligence community efforts to round 
up former regime figures have disrupted some insurgent plans to 
carry out additional anti-coalition attacks. But we know these 
Ba'athist cells are intentionally decentralized to avoid easy 
penetration and to prevent the rollup of whole networks. Arms, 
funding and military experience remain readily available.
    The situation as I've described it, Mr. Chairman, both our 
victories and our challenges, indicates that we have damaged 
but not yet defeated the insurgents.
    The security situation is further complicated by the 
involvement of terrorists, including Ansar al-Islam and al 
Zarqawi and foreign jihadists coming to Iraq to wage jihad. 
Their goal is clear: They intend to inspire an Islamic 
extremist insurgency that would threaten coalition forces and 
put a halt to the long-term process of building democratic 
institutions. They hope for a Taliban-like enclave in Iraq's 
Sunni heartland that could be a jihadist safe haven.
    Ansar al-Islam, a Kurdish extremist group, is waging a 
terrorist campaign against the coalition presence and 
cooperative Iraqis in a bid to inspire jihad and create an 
Islamic state. Some extremists even go further. In a recent 
letter, terrorist plotter Abu Mus'ab Zarqawi outlined a 
strategy to foster sectarian civil war in Iraq aimed at 
inciting the Shia.
    Stopping the foreign extremists from turning Iraq into 
their most important jihad yet rests in part on preventing 
loosely connected extremists from coalescing into a cohesive 
terrorist organization. We're having some success in this 
regard, and we're keeping an eye on the convergence between 
jihadists and former regime elements. And at this point, we've 
seen very few signs of such cooperation at the tactical or 
local level.
    Ultimately, the Iraqi people themselves must provide the 
fundamental solutions. As you well know, the insurgents are 
incessantly and violently targeting Iraqi police and security 
forces precisely because they fear the prospect of Iraqis 
securing their own interests. Success depends on broadening the 
role of local security forces. It goes beyond numbers. It means 
continuing the work already under way, fixing equipment 
shortages, training and ensuring pay.
    It's hard to overestimate the importance of greater 
security for Iraqis, particularly as we turn to the momentous 
political events slated for 2004. The real test will begin soon 
after the transfer of sovereignty. We'll see the extent to 
which the new Iraqi leaders embody the concepts such as 
pluralism, compromise and the rule of law.
    Iraqi Arabs and many Kurds possess a strong Iraqi identity 
forged over 80 years of history and especially during the 
nearly decade-long war with Iran. Unfortunately, Saddam's 
divide and rule policy and his favorite treatment of the Sunni 
minority aggravated tensions to the point where the key 
governance in Iraq today is managing these competing sectional 
interests. And you know them, Mr. Chairman--Shia, Kurds and 
Sunnis.
    I should qualify that no society--surely not Iraq's complex 
tapestry--is so simple as to be captured in three categories, 
and this is an important point. In reality, Iraqi society is 
filled with more cleavages and more connections than a simple 
topology can suggest. We seldom hear about the strong tribal 
alliances that have long existed between Sunnis and Shia or the 
religious commonalities between Sunni, Kurd and Arab 
communities or the moderate secularism that spans Iraqi groups. 
We tend to identify and stress the tensions that rend 
communities apart, but opportunities also exist for these 
groups to work together for common ends. The social and 
political interplay is further complicated by Iran, especially 
in the south, where Tehran pursues its own interests and hopes 
to maximize its influence among Iraqi Shia after the 1st of 
July.
    The most immediate political challenge for the Iraqis is to 
choose their transitional government that will rule their 
country while they write their permanent constitution. The Shia 
cleric, the Grand Ayatollah Mohammed Sistani, has made this 
election process the centerpiece of his effort to ensure that 
Iraqis will decide their own future and choose the first 
sovereign post-Saddam government. He favors direct elections as 
the way to produce a legitimate accountable government. 
Sistani's religious pronouncements show that, above all, he 
wants Iraq to be independent of foreign powers. Moreover, his 
praise of free elections and his theology reflect, in our 
reading, a clear-cut opposition to theocracy Iranian style.
    The Sunnis--just to talk a bit about the Sunnis because 
they're important--they've been disaffected and deposed as the 
ruling class, but some are beginning to recognize that 
boycotting the emerging political process will weaken their 
community. Their political isolation, I believe, is breaking 
down in parts of the Sunni triangle where Sunni Arabs have 
begun to engage the coalition and assume local leadership 
roles.
    And in the past three months, we have also seen the 
founding of national-level Sunni umbrella organizations to deal 
with the coalition and the governing council on questions like 
Sunni participation in choosing the transitional government. 
This is a good development, Mr. Chairman.
    The question of federalism is an issue that will have to be 
resolved. To make a federal arrangement stick, Kurdish and Arab 
leaders will need to explain convincingly that the federal 
structure benefits all Iraqis and not just Kurds. And even so, 
a host of difficult issues--control over oil and security being 
perhaps the most significant--may provoke tension between 
Kurdish and central Iraqi authorities.
    Mr. Chairman, I want to talk a bit about economic 
reconstruction. It's true that the rebuilding will go on for 
years and that the Saddam regime left in its wake a devastated 
and antiquated underfunded infrastructure. But the 
reconstruction process and Iraq's own considerable assets--its 
natural resources and its educated populace--should enable the 
Iraqis to see important improvement in 2004.
    Over the next few years, they'll open more hospitals and 
build more roads than anyone born under Saddam has ever 
witnessed.
    The recovery of Iraqi oil production will help. Production 
is on track to approach three million barrels a day by the end 
of the year. Iraq hasn't produced this much oil since 1991. And 
by next year, revenues from oil exports should cover the cost 
of basic government operations and contribute several billion 
dollars toward reconstruction.
    Much more needs to be done, however. Key public services, 
such as water and sewage and transportation, will have 
difficulty meeting prewar levels by July and won't meet the 
higher target of Iraqi total demand, although work is going on 
in all these areas.
    Mr. Chairman, let me shift to proliferation. We're watching 
countries of proliferation concern choose different paths as 
they calculate the risks versus gains of pursuing weapons of 
mass destruction.
    Libya is taking steps toward strategic disarmament. North 
Korea is trying to leverage its nuclear program into at least a 
bargaining chip and also international legitimacy and 
influence. And Iran is exposing some programs while trying to 
preserve others.
    I'll start with Libya, which appears to be moving toward 
strategic disarmament. For years, Gadhafi has been an 
international pariah. In May of 2003, he made a strategic 
decision and reached out through British intelligence with an 
offer to abandon his pursuit of weapons of mass destruction. 
That launched nine months of delicate negotiations, where we 
moved the Libyans from a stated willingness to renounce WMD to 
an explicit and public commitment to expose and dismantle their 
WMD programs.
    The leverage here was intelligence. Our picture of Libya's 
WMD programs allowed CIA officers and their British colleagues 
to press the Libyans on the right questions, to expose 
inconsistencies and to convince them that holding back was 
counterproductive. We repeatedly surprised them with the depth 
of our knowledge. For example, U.S. and British intelligence 
officers secretly traveled to Libya and asked to inspect 
Libya's ballistic missile programs. Libyan officials at first 
failed to declare key facilities, but our intelligence 
convinced them to disclose several dozen facilities, including 
their deployed Scud B sites and their secret North Korean-
assisted Scud C production line.
    When we were tipped to the imminent shipment of centrifuge 
parts to Libya in October, we arranged to have cargo seized, 
showing the Libyans that we had penetrated their most sensitive 
procurement network.
    By the end of the visit, the Libyans admitted to having a 
nuclear program and having bought uranium hexaflouride feed 
material for gas centrifuge enrichment, admitted to having 
nuclear weapons designs, acknowledged having about 25 tons of 
sulphur mustard CW agent, provided access to their deployed 
Scud B forces and revealed indigenous missile design work in 
cooperation with North Korea on Scud Cs.
    From the very outset of negotiations, Gadhafi requested the 
participation of international organizations to help certify 
Libya's compliance.
    In contrast to Libya, North Korea is trying to leverage its 
nuclear programs into international legitimacy and bargaining 
power, announcing its withdrawal from the NPT, Nonproliferation 
Treaty, and openly proclaiming that it has a nuclear deterrent. 
Since December of 2002, Pyongyang has announced its withdrawal 
from the Nonproliferation Treaty and expelled IAEA inspectors. 
Last year Pyongyang claimed to have finished reprocessing the 
8,000 fuel rods that had been sealed by the United States and 
North Korean technicians and stored under IAEA monitoring since 
1994.
    The intelligence community judged that in the mid-nineties 
North Korea had produced one, possibly two, nuclear weapons. 
The 8,000 rods that the North Koreans claim to have reprocessed 
into plutonium metal would provide enough plutonium for several 
more. We also believe Pyongyang is pursuing a production-scale 
uranium enrichment program based on technology provided by A.Q. 
Khan, which would give the North Koreans an alternative route 
to nuclear weapons.
    Mr. Chairman, my statement goes on to talk a bit about 
North Korea, but let me talk about Iran, the third country.
    Iran is taking a different path, acknowledging work on a 
covert nuclear fuel cycle while trying to preserve its WMD 
options. I'll start with the good news. Tehran acknowledges 
more than a decade of covert nuclear activity and agreed to 
open itself up to an enhanced inspection regime. Iran, for the 
first time, acknowledged many of its nuclear fuel cycle 
development activities, including a large-scale gas centrifuge 
uranium enrichment effort.
    Iran claims its centrifuge program is designed to produce 
low enriched uranium to support Iran's civil nuclear program. 
This is permitted under the Nonproliferation Treaty, but here's 
the downside: The same technology can be used to build a 
military program as well. The difference between producing low 
enriched uranium and weapons-capable, high enriched uranium is 
only a matter of time and intent, not technology. It would be a 
significant challenge for intelligence to confidently assess 
whether this red line has been crossed.
    Mr. Chairman, we go on to talk about A.Q. Khan. And I've 
talked about that and you know more about that.
    The bottom-line issue on proliferation for us is, in 
support, we have a lot of public success, but proliferators 
hiding among legitimate businesses and countries hiding their 
WMD programs inside legitimate dual-use industries combine to 
make private entrepreneurs dealing in lethal goods one of the 
most difficult and challenging intelligence channels that we 
face. The dual challenge is especially applicable to countries 
hiding biological and chemical warfare programs.
    Mr. Chairman, with regard to ballistic significant missile 
programs, one point. China continues an aggressive missile 
modernization program that will improve its ability to conduct 
a wide range of military actions against Taiwan supported by 
both cruise and ballistic missiles. Expected technical 
improvements will give Beijing a more accurate and lethal 
force. China is also moving ahead on its first generation of 
ballistic missiles.
    My statement talks about Syria.
    And in the final part of the proliferation section, Mr. 
Chairman, we have to remain alert to the vulnerability of 
Russian WMD materials and technology to theft or diversion.
    We are concerned about the continued eagerness of Russia's 
cash-strapped defense, biotechnology, chemical, aerospace and 
nuclear industries to raise funds via exports and transfers, 
which makes Russian expertise an attractive target for 
countries and groups seeking WMD and missile-related 
assistance.
    Mr. Chairman, we've talked about North Korea. You obviously 
all are aware of the difficult internal situation there and the 
way they've ruled by intimidation and fear, and the accumulated 
effect of years of deprivation and repression.
    With regard to China, let me say a number of things. China 
continues to emerge as a great power and expand its profile in 
regional and international politics. It is also true that the 
Chinese have cooperated with us on terrorism and have been 
willing to host and facilitate multilateral dialogue on the 
North Korean nuclear problem, in contrast to an approach where 
they ignored these problems years ago.
    They're making progress in asserting their influence in 
East Asia, largely on the basis of their economy.
    That said, China's neighbors still harbor suspicions about 
Beijing's long-term intentions. They generally favor a 
sustained U.S. military presence in the region as an insurance 
against potential Chinese aggression.
    Our greatest concern remains China's military build-up 
which continues to accelerate. Last year, Beijing reached new 
benchmarks in its production or acquisition from Russia of 
missiles, submarines and other naval combatants and advanced 
fighter aircraft.
    China is also downsizing and restructuring its military 
forces with an eye toward enhancing its capabilities for the 
modern battlefield.
    Mr. Chairman, I'm going to do perhaps just one more thing: 
talk about Iran. Afghanistan is important. Perhaps we can talk 
about that in the Q&As.
    Iran. I think this is very important. Our view and my view 
is with the victory of hardliners in the elections last 
weekend, government-led reform has received a serious blow. 
Greater repression is the likely result. With the waning of 
top-down reform efforts, reformers will probably turn to the 
grassroots, working with NGOs and labor groups to rebuild 
popular support and keep the flame alive.
    The strengthening of authoritarian rule will make breaking 
out of old foreign policy patterns more difficult.
    The concerns I voiced last year are unabated. The current 
setback is the latest in a series of contests in which 
authoritarian rule has prevailed over reformist challengers.
    The reformists, President Khatami in particular, are in no 
small part to blame. Their refusal to back bold promises with 
equally bold actions exhausted their initially enthusiastic 
popular support. When the new Majlis convenes in June, the 
Iranian government will be even more firmly controlled by the 
forces of authoritarianism. In the recent election, clerical 
authorities disqualified more than 2,500 candidates--mostly 
reformists--and returned control of the legislature to the 
hardliners. The new Majlis will focus on economic reform with 
little or no attention to political liberalization.
    Although greater repression is likely to be the most 
immediate consequence, this will only further deepen the 
discontent with clerical rule, which is now discredited and 
publicly criticized as never before. In the past year, several 
unprecedented open letters, including one signed by nearly half 
the parliament, were published calling for an end to the 
clergy's absolute rule.
    Mr. Chairman, finally, let me just say something about 
Colombia, and I will end there.
    In this hemisphere, it's important to pay attention to 
President Uribe. President Uribe is making great strides 
militarily and economically. Colombia's military is making 
steady progress against illegal armed groups, particularly 
around Bogota. Last year, the army decimated several FARC 
military units. In the last two months, Colombian officials 
have apprehended the two most senior FARC leaders ever 
captured.
    Foreign and domestic investors are taking note. Last year 
the growth rate of 3.5 percent was the highest in the past five 
years. Some of Uribe's hardest work remains ahead. The military 
has successfully cleared much of the insurgent-held territory, 
but the next stage of Uribe's clear-and-hold strategy is 
securing the gains thus far. That entails building state 
presence--schools, police stations, medical clinics, roads, 
bridges and social infrastructure--where it has scarcely 
existed before.
    Mr. Chairman, I will stop there.
    Senator Rockefeller, I will say, if you go to the back part 
of my statement, in the last couple of pages, you'll see the 
kind of implications you drew from stateless zones, disease and 
hunger, their implications for terrorism, and how we at least 
think about these things, because they are very important.
    Thank you, Mr. Chairman.
    Chairman Roberts. We thank the Director, and we move now to 
Director Mueller.
    [The prepared statement of Director Mueller follows:]
    [GRAPHIC] [TIFF OMITTED] 95393A.025
    
    [GRAPHIC] [TIFF OMITTED] 95393A.026
    
    [GRAPHIC] [TIFF OMITTED] 95393A.027
    
    [GRAPHIC] [TIFF OMITTED] 95393A.028
    
    [GRAPHIC] [TIFF OMITTED] 95393A.029
    
    [GRAPHIC] [TIFF OMITTED] 95393A.030
    
 STATEMENT OF THE HONORABLE ROBERT S. MUELLER, III, DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Director Mueller. Thank you, Mr. Chairman, and Senator 
Rockefeller and members of the Committee, for this opportunity 
to discuss the world threats facing this nation and how the FBI 
has adapted to meet these emerging threats.
    I'm going to touch on some of the successes of the past 12 
months, but at the outset I would like to say that none of 
these successes would have been possible without the 
extraordinary efforts of our partners in the Intelligence 
Community, and most particularly in state and local law 
enforcement, as well as with the help of our counterparts 
around the world.
    Also at the outset, I should mention that the Muslim-
American, Iraqi-American and Arab-American communities in the 
United States have contributed a great deal to our success, and 
on behalf of the FBI, I would like to thank these communities 
for their assistance and for their ongoing commitment to 
preventing acts of terrorism.
    In 2003, the United States and its allies made considerable 
advances toward defeating the al-Qa'ida network around the 
world. And since this Committee's worldwide threat hearing last 
year, the efforts of the FBI, along with our state and local 
law enforcement partners--the efforts to identify terrorists 
and to dismantle terrorist networks have yielded major 
successes.
    In Cincinnati, an al-Qa'ida operative was charged with 
providing material support to terrorists.
    In Baltimore, a resident was identified as an al-Qa'ida 
operative with direct associations to now detained senior al-
Qa'ida operative Tawfiq bin Attash and Khalid Shaykh Mohammed.
    In Tampa, the United States leader of the Palestine Islamic 
Jihad and three of his lieutenants were arrested under the RICO 
statute for their participation in a conspiracy that 
contributed to the deaths of two United States citizens in 
Israel.
    In Newark, three individuals, including an illegal arms 
dealer, were indicted for their role in attempting to smuggle a 
shoulder-fired missile into the United States.
    And in Minneapolis, an individual who trained in 
Afghanistan and provided funds to associates in Pakistan was 
recently arrested and charged with conspiring to provide 
material support to al-Qa'ida.
    Mr. Chairman, it is important to note that we attribute 
these and other recent successes to our close coordination and 
information sharing with other members of the intelligence 
community, with our overseas partners, and with state and local 
law enforcement officials, many of whom participate in our 84 
Joint Terrorism Task Forces.
    As you know, the Joint Terrorism Task Forces team up FBI 
agents with police officers, members of the Intelligence 
Community, Homeland Security and other federal partners to 
coordinate counterterrorism investigations and to share 
information. The Joint Terrorism Task Forces have played a 
central role in virtually every terrorism investigation, 
prevention or interdiction within the United States over the 
past year.
    Our current abilities to coordinate with our partners and 
develop actionable intelligence to prevent terrorist attacks 
are a direct result of our efforts to transform the FBI to meet 
our counterterrorism mission. And while I am going to discuss 
this transformation, first I would like to spend a few moments 
discussing what we see as the greatest threats facing the 
United States.
    As Mr. Tenet has indicated, the greatest threat remains 
international terrorism, specifically Sunni extremists, 
including al-Qa'ida. While our successes to date are dramatic, 
we face an enemy that is determined, an enemy that is 
resilient, an enemy that is patient, an enemy whose ultimate 
goal is destruction of the United States. Al-Qa'ida's 
flexibility and adaptability continue to make them dangerous 
and unpredictable. The enemy still has the capability to strike 
in the United States and to strike United States citizens 
abroad with little or no warning.
    Al-Qa'ida is committed to damaging the United States 
economy and United States prestige, and will attack any target 
that will accomplish these goals.
    There are strong indications that al-Qa'ida will revisit 
missed targets until they succeed, such as they did with the 
World Trade Center. And the list of missed targets now includes 
both the White House as well as the Capitol. In addition, our 
transportation systems across the country, particularly the 
subways and bridges in major cities, as well as airlines, have 
been a continual focus of al-Qa'ida targeting.
    We, too, remain concerned about al-Qa'ida's efforts to 
acquire weapons of mass destruction. The discovery of ricin in 
Europe, al-Qa'ida's clear interest in a range of chemical, 
biological, radiological and nuclear weapons, and its desire to 
attack the United States at equal or greater levels than 9/11 
highlight the need for continued vigilance in this regard.
    Finally, al-Qa'ida retains a cadre of supporters within the 
United States which extends across the country. Indeed, al-
Qa'ida appears to recognize the operational advantage it can 
derive from recruiting United States citizens. And while the 
bulk of al-Qa'ida supporters in the United States are engaged 
in fundraising, recruitment and logistics, there have been 
cases--some of which I've mentioned previously--there have been 
cases of those apparently involved in operational planning.
    While al-Qa'ida and like-minded groups remain at the 
forefront of the war on terror, other groups, such as 
Hizbollah, Hamas and the Palestine Islamic Jihad, warrant equal 
vigilance due to their ongoing capability to launch terrorist 
attacks within the United States. Historically, however, these 
groups have limited their militant activities to Israeli 
targets and have focused on fundraising, recruitment and 
procurement as their main activities in the United States.
    The FBI disrupted several significant Hizbollah cells over 
the last year. In Charlotte, North Carolina, an individual was 
sentenced to 155 years in jail for conspiring to provide 
material support to Hizbollah. In Detroit, Michigan, 11 
individuals, some of whom have admitted ties to Hizbollah, were 
charged with bank fraud, cigarette smuggling and RICO offenses. 
These arrests were the result of a long-term investigation of 
criminal enterprises associated with Hizbollah.
    Mr. Chairman, although the impact of terrorism is more 
immediate and more highly visible, espionage and foreign 
intelligence activities are no less threats to the United 
States national security.
    Given our country's stature as the leading political, 
military, economic and scientific power, foreign intelligence 
services will continue to recruit sources to penetrate the 
United States Intelligence Community and the United States 
government. They will continue to target our national economic 
interests and our research and development base. They will 
continue to attempt to assert political influence through 
perception management operations.
    The loss of sensitive, classified and proprietary 
information critical to United States interests can hamper our 
ability to conduct international relations, can threaten our 
military and diminish our technological base, as well as our 
economic competitiveness.
    Mr. Chairman, I should also mention that the FBI is 
expanding our efforts to address the rapidly growing cyber 
threat as it relates to both terrorism and national security. 
The number of individuals and groups with the ability to use 
computers for illegal, harmful and possibly devastating 
purposes is on the rise. We are particularly concerned about 
terrorists and state actors wishing to exploit vulnerabilities 
in United States systems and networks.
    The FBI has a division dedicated to combating cyber crime 
and cyber-terrorism and we are committed to identifying and 
neutralizing those individuals or groups that illegally access 
computer systems, spread malicious code, and support terrorist 
or state-sponsored computer operations.
    Over the past year, Mr. Chairman, the men and women of the 
FBI have continued to implement a plan that fundamentally 
transforms our organization to enhance our ability to predict 
and to prevent terrorism. As you know, we took the first steps 
toward this transformation in the days and weeks following the 
9/11 attacks and we established a new set of priorities that 
govern the allocation of manpower and resources in every FBI 
program and in every FBI office.
    Counterterrorism is our overriding priority and every 
terrorism lead is addressed, even if it requires a diversion of 
resources from other priorities. Since September 11, we have 
centralized management of our counterterrorism, 
counterintelligence and cyber programs to eliminate stovepiping 
of information, to coordinate operations, to conduct liaison 
with other agencies and governments, and to be accountable for 
the overall development and success of our efforts in these 
areas.
    Our operational divisions at headquarters have analyzed the 
threat environment and devised national strategies to address 
the most critical threats and are implementing these strategies 
in every field office. We have also reallocated resources in 
accordance with these new priorities. For example, we have 
increased a number of agents assigned to counterterrorism from 
roughly 1,300 to 2,300 and hired over 400 analysts.
    Our Joint Terrorism Task Forces have grown from 35 to 84. 
Prior to September 11 we had a little over 900 agents and 
police officers serving on our task forces. We now have over 
3,300 serving on those task forces.
    And to enhance our translation capabilities, we increased 
the number of linguists with skills in critical languages from 
555 to over 1,200.
    Mr. Chairman, over the past year we also have made 
substantial progress in implementing the next key step in our 
transformation, and that is the FBI's intelligence program. The 
FBI has always been among the world's best collectors of 
information. For a variety of historical reasons, the Bureau 
did not have a formal infrastructure to exploit that 
information fully for its intelligence value.
    While individual FBI agents have always capably analyzed 
the evidence in their particular cases and then used that 
analysis to guide their investigations, the FBI has in the 
past, but not across the board, implemented an overall effort 
to analyze intelligence and then strategically direct 
intelligence collection.
    Today, an enterprise-wide intelligence program is 
absolutely essential. The threats to the homeland are not 
contained by geographic boundaries and often do not fall neatly 
into investigative program categories. Consequently, threat 
information has relationships and applicability that crosses 
both internal and external organizational boundaries. 
Counterterrorism efforts must incorporate elements and 
contribute toward counterintelligence, cyber and criminal 
programs. And in order to respond to this changing threat 
environment, we are building our capabilities to fuse, analyze 
and disseminate our related intelligence and to create 
collection requirements based on our analysis of 
theintelligence gaps about our adversaries.
    We have an Office of Intelligence within the FBI which 
establishes and executes standards for recruiting, hiring, 
training and developing the intelligence analytical workforce 
and to ensure that analysts are assigned to operational and 
field divisions based on intelligence priorities.
    We have established a new position of Executive Assistant 
Director for Intelligence, joining the other three Executive 
Assistant Directors in the top tier of FBI management, and we 
recruited Maureen Baginski, an intelligence expert with 25 
years of experience in the intelligence community, to serve in 
this position. She's responsible for managing the national 
analytical program and for institutionalizing intelligence 
processes in all areas of FBI operations. Among her 
responsibilities are those for managing the establishment of 
the formal requirements process that will identify and resolve 
those intelligence gaps, allowing us to fill those gaps through 
collection strategies.
    Finally, in order to ensure that the FBI-wide collection 
plans and directives are incorporated into our field 
activities, all field offices have established a Field 
Intelligence Group, and each of those groups is the 
intelligence component in the field office responsible for the 
management, execution and coordination of the intelligence 
functions.
    For our intelligence program to succeed, we must continue 
to build and strengthen our intelligence workforce. Our efforts 
to recruit, hire and train agents and analysts with 
intelligence experience began shortly after September 11. And 
now we are also taking steps to enhance the stature of 
intelligence and analysis within the FBI and to provide career 
incentives for specialization in these areas. To ensure that 
our intelligence mission is carried out, we are revising our 
field office and program inspections and agent and management 
evaluations to make it clear that developing and disseminating 
intelligence is the job of every office and agent.
    Mr. Chairman, my prepared statement provides additional 
details about the many enhancements to our intelligence 
programs, including increased training, targeted hiring, 
creation of the College of Analytical Studies, establishment of 
career tracks for agents who will devote their careers to 
intelligence, and improvements to our information technology.
    In the interest of time, Mr. Chairman, I will conclude at 
this point. And again, I will be happy to answer any questions 
the Committee may have. Thank you for the opportunity to give 
this statement.
    Chairman Roberts. And we thank you, Director Mueller.
    Admiral, would you please proceed?
    [The prepared statement of Admiral Jacoby follows:]
    [GRAPHIC] [TIFF OMITTED] 95393A.031
    
    [GRAPHIC] [TIFF OMITTED] 95393A.032
    
    [GRAPHIC] [TIFF OMITTED] 95393A.033
    
    [GRAPHIC] [TIFF OMITTED] 95393A.034
    
    [GRAPHIC] [TIFF OMITTED] 95393A.035
    
    [GRAPHIC] [TIFF OMITTED] 95393A.036
    
    [GRAPHIC] [TIFF OMITTED] 95393A.037
    
    [GRAPHIC] [TIFF OMITTED] 95393A.038
    
    [GRAPHIC] [TIFF OMITTED] 95393A.039
    
    [GRAPHIC] [TIFF OMITTED] 95393A.040
    
    [GRAPHIC] [TIFF OMITTED] 95393A.041
    
    [GRAPHIC] [TIFF OMITTED] 95393A.042
    
    [GRAPHIC] [TIFF OMITTED] 95393A.043
    
    [GRAPHIC] [TIFF OMITTED] 95393A.044
    
    [GRAPHIC] [TIFF OMITTED] 95393A.045
    
    [GRAPHIC] [TIFF OMITTED] 95393A.046
    
    [GRAPHIC] [TIFF OMITTED] 95393A.047
    
    [GRAPHIC] [TIFF OMITTED] 95393A.048
    
    [GRAPHIC] [TIFF OMITTED] 95393A.049
    
    [GRAPHIC] [TIFF OMITTED] 95393A.050
    
    [GRAPHIC] [TIFF OMITTED] 95393A.051
    
    [GRAPHIC] [TIFF OMITTED] 95393A.052
    
    [GRAPHIC] [TIFF OMITTED] 95393A.053
    
    STATEMENT OF VICE ADMIRAL LOWELL E. JACOBY, U.S. NAVY, 
             DIRECTOR, DEFENSE INTELLIGENCE AGENCY

    Admiral Jacoby. Thank you, Mr. Chairman, and members of the 
Committee. I appreciate this Committee's strong sustained 
support for defense intelligence and its men and women who are 
deployed around the world.
    Last year I testified that defense intelligence was at war 
on a global scale. That war has intensified. Defense 
intelligence professionals, active duty military, reserves and 
civilians are providing the knowledge and skills essential to 
defeating enemies in Iraq, Afghanistan and the global war on 
terrorism.
    In Iraq, the security situation varies by region. The north 
and the south remain comparably quiet. Attacks in central Iraq 
account for the vast majority of incidents and center in Sunni-
dominated areas, especially west of Baghdad, around Mosul and 
along the Baghdad-Tikrit corridor, areas that were home to many 
former military and security members. I believe former regime 
elements led by Ba'ath Party remnants are responsible for the 
majority of anti-coalition attacks.
    That said, it appears much of the Sunni population has not 
decided whether to back the coalition or support the 
insurgents. The key factors in this decision are stability and 
a future that presents viable alternatives to the Ba'athists or 
Islamists.
    Foreign fighters, to include al-Qa'ida, are a continuing 
threat. They have perpetrated some of the most significant 
attacks and may be behind others, such as suicide attacks that 
caused high casualties. They are motivated by Arab nationalism, 
extremist religious ideology and opposition to U.S. policies 
and beliefs. Left unchecked, Iraq has the potential to serve as 
a training ground for the next generation of terrorists.
    Mr. Chairman, I returned from Iraq ten days ago. At this 
point, I would like to recognize the exemplary work of the 
Iraqi Survey Group. DIA and defense intelligence personnel, 
intelligence community experts, counterparts from U.S. agencies 
and contractors and coalition members are analyzing new 
information, pursuing leads, inspecting and searching 
facilities and combing through, sorting and exploiting tens of 
thousands of documents in a dangerous and austere environment.
    Forming and managing this mix of professionals has taken 
considerable effort, not just DIA people, but by our national 
and coalition partners as well. The ISG and those who provide 
support for their efforts are to be commended for their 
dedicated efforts as the ISG pursues a full accounting of Iraqi 
WMD programs, counterterrorism in Iraq and the fate of Captain 
Scott Speicher.
    Turning to Afghanistan, last spring's attacks by opposition 
groups reached the highest level since the collapse of the 
Taliban government in December of 2001. Although activity has 
subsided somewhat, attacks continue. The Taliban insurgency 
that continues to target humanitarian assistance and 
reconstruction organizations is a serious threat. Some of those 
organizations have suspended operations. They play a key role 
in bringing stability and progress to this troubled nation.
    Additionally, President Karzai remains critical to 
stability in Afghanistan. As a Pashtun, he is the only 
individual capable of maintaining the trust of that ethnic 
group while maintaining support of other minorities.
    Notable progress has been achieved in the global war on 
terrorism. We have shrunk operating environments for al-Qa'ida 
and other terrorist groups, captured al-Qa'ida senior 
coordinators and disrupted operations. Nevertheless, al-Qa'ida 
remains the greatest threat to our homeland and our overseas 
presence.
    Al-Qa'ida continues to demonstrate it's adaptable and 
capable. While al-Qa'ida's planning has become more 
decentralized and shifted to softer targets, they continue 
attacks, most recently in Istanbul and Riyadh, enjoy 
considerable support in the Islamic world. Al-Qa'ida and other 
terrorist groups remain interested in acquiring chemical, 
biological, radiological and nuclear weapons. Hijackings and 
man-portable missile attacks against civilian aircraft remain 
of considerable concern.
    A number of factors virtually assure a terrorist threat for 
years to come. Despite recent reforms, terrorist organizations 
draw from societies with poor or failing economies, ineffective 
governments and inadequate education systems. Demographic 
bubbles or youth bubbles further burden governments and 
economies. For instance, if we look at the percentage of 
population under 15 years of age, 43 percent of Saudi Arabians, 
41 percent of Iraqis, 39 percent of Pakistanis, 34 percent of 
Egyptians, 33 percent of Algerians and 29 percent of Iranians 
fall into this group.
    I'm also concerned over ungoverned spaces, areas where 
governments do not or cannot exercise effective control. Such 
spaces offer terrorist organizations sanctuary.
    I remain concerned about the Islamic world. Many of our 
partners successfully weathered domestic stresses during 
Operation Iraqi Freedom; however challenges to their stability 
and their continued support for the war on terrorism remain. 
Islamic and Arab populations are increasingly opposed to U.S. 
policies. The loss of a key leader could quickly change 
government support for U.S. and coalition operations.
    For example, President Musharraf was recently the target of 
two sophisticated assassination attempts. His support for the 
global war on terrorism, Afghan policy, restrictions on 
Kashmiri militants and attempts to improve relations with India 
are all important initiatives that have increased his 
vulnerability.
    Despite some positive developments, such as recent events 
in Libya, the trends with respect to proliferation of weapons 
of mass destruction and missiles remain troublesome. North 
Korea's reactivation of the Yongbyon nuclear facility and 
revelations over Iranian nuclear enrichment reinforce concerns. 
Other states continue to develop biological and chemical 
weapons capabilities and improve their ballistic and cruise 
missiles. Proliferation of WMD and missile-related technologies 
continues and new supply networks challenge counter-
proliferation efforts.
    With respect to China and Russia, China continues to 
develop or import modern weapons. China's Liberation Army 
acquisition priorities includes surface combatants and 
submarines, air defense, modern fighter aircraft, ballistic and 
anti-ship cruise missiles, space and counter-space systems and 
modern ground equipment.
    Domestic political events in Taipei are the principal 
determinant of short-term stability in the Taiwan Straits. 
Beijing is monitoring developments in advance of next month's 
presidential elections and referendum, ever concerned about a 
Taiwan declaration of independence. Beijing will not tolerate 
the island's independence and will use military force, 
regardless of the costs or risks. However, we see no indication 
of preparations for large-scale military exercises or other 
military activity to influence Taiwan voters at this stage.
    After nearly a decade of declining activity, the Russian 
military is beginning to exercise its forces in mission areas 
tied to deterrence, global reach and rapid reaction. Moscow is 
attempting to reclaim great power status. Its military spending 
has increased in real terms in the past four years in line with 
its improving economy.
    In closing, defense intelligence is working hard to improve 
the processes, techniques and capabilities necessary to counter 
the current threats and emerging security challenges and to 
take advantage of opportunities. Our global commitments have 
stressed our people and our capabilities. Nonetheless, I am 
confident we will continue to supply our decisionmakers with 
the knowledge necessary for success.
    Thank you, Mr. Chairman.
    Chairman Roberts. We thank all three of you for your 
testimony.
    I would say to members that we are providing six minutes 
for each member, and then if there is time and desire for a 
second round that will also be the case.
    Let me indicate that there has been considerable interest 
in the Committee holding a hearing in reference to the 
recommendations made by the 9/11 investigation by the House and 
Senate Intelligence Committees as of the last session of 
Congress on the recommendations and reforms that were listed in 
that document. That, of course, went to the independent 
commission, which is now the 9/11 commission. And so we will 
have a hearing on those recommendations.
    And it would be the hope of the Chairman that when we 
finally conclude or that we do conclude the inquiry and we make 
the inquiry public after redaction, when we have a public 
hearing, that we come up with the conclusion and also some 
recommendations in regards to a positive effect to address some 
of the systemic challenges we face in the Intelligence 
Community.
    I know that in an even-numbered year where we have 
adjectives and adverbs that are somewhat unique, as opposed to 
an odd-number year, it may be difficult to leapfrog that and to 
get into conclusions and recommendations, but that would be the 
hope of the Chair.
    Both of you have indicated that attacks on coalition forces 
and on the newly-created Iraqi security forces have continued 
at a steady pace. That's certainly not a secret to any 
American. Events have shown us that the sophistication of those 
attacks has increased. There is no sign that the people behind 
the attacks plan to stop. In fact, it appears that the 
opposition has hoped to block or derail any moves toward a 
transition of governing authority.
    I would address this question to the DCI and to the DIA 
Director. First, is this working?
    Second, will coalition forces and Iraqi security forces be 
capable of identifying and also eliminating the main body of 
the oppositionists and the foreign fighters?
    And third, in your opinion, what are the most important 
factors that will determine whether Iraqi Sunnis and Shia will, 
in the long term, side with forces of peace and stability 
rather than continue or accelerate opposition to the new 
government order in Iraq?
    And I would ask Mr. Tenet if he would respond.
    Director Tenet. You asked a number of questions, Mr. 
Chairman.
    First, the transition to sovereignty and a functioning 
state is exactly what the insurgents and the jihadists oppose 
the most. It's the biggest threat to them over the long term.
    Now, in terms of how we're doing against these, I think 
that we would say that, over time, both we and the military, 
particularly at local levels, have very good knowledge of these 
networks, both in terms of the insurgency and the jihadists. 
And we're making progress.
    Security is linked to economics and politics in an 
integrated manner. Security is very, very important.
    The fact that Sunnis are beginning to engage in a political 
process, form umbrella organizations, the fact that Ayatollah 
Sistani is meeting with Sunni notables, the fact that tribal 
elements that constitute Sunnis and Shias are beginning to talk 
about a political process is a healthy thing.
    Clearly, economic developments, particularly in the Sunni 
heartland, dealing with unemployment, taking young men off the 
street, putting them in a job--all of these things work in a 
process interlinked together that makes progress. It's hard. 
We're better than we were 90 days ago. The fact that there is a 
dialogue between Sunnis and Shias and Kurds, as much ferment as 
it creates, is a positive sign that must end up in Iraqi 
sovereignty.
    And the key, ultimately, is--if John Abizaid were here, he 
would say the key is we need to transition from U.S. forces 
being up front, to Iraqis, through police forces, civil defense 
battalions taking the action to be seen as protecting 
themselves.
    One final word about the foreign jihadists: Success here 
for them, they understand that Iraq is a very difficult 
operating environment, even while they operate against us. 
Iraqis are turning them in in bigger numbers. They're talking 
to us about them. They don't belong there.
    As this political process matures, I think we're going to 
be better off, but it will be hard and slow and every day you 
will not have the kind of progress that you want, but we're 
moving in the right direction.
    Chairman Roberts. Admiral.
    Admiral Jacoby. Mr. Chairman, I agree with the DCI that 
certainly the factors are stability and an economic and 
political situation that shows a brighter future than the past 
or present. I also believe thattheir efforts are making 
progress, partly by the fact that people are coming forward and 
providing more information against the former regime elements or the 
foreign fighters.
    But I think one of the more demonstrable factors for 
progress is the fact that the police are now a very clear 
target of attack in an anti-stability kind of an approach and 
police recruits are still lining up in large numbers to be 
trained and join the force.
    And so I think that there are a number of elements there 
that talk about progress, and the focus, as the DCI said, needs 
to be on that evolving situation and the set of institutions 
that need to be in place in order to provide that environment 
for people to see that they are part of the future.
    Chairman Roberts. Let me ask a question in regards to Dr. 
Duelfer who, obviously, is in charge of the Iraq Survey Group. 
In talking to him before he took on that assignment, he 
indicated--and I think Dr. Kay indicated--that there was 
something close to 17,000 boxes of documents that had not been 
exploited.
    My concern is, do we have the translation capability? And 
the indication from some was that it would take a year to 
finally work through all the exploitation of those documents to 
try to make rhyme or reason in regards to the WMD question.
    Do your agencies have sufficient translation resources to 
meet your current mission requirements? Have we been able to 
plus that up I think is the word we use in the Intelligence 
Community?
    Admiral Jacoby. Mr. Chairman, your numbers are about 
right--in other words, the 17,000 boxes and about a year's 
worth of time. The translation capabilities are in place. We 
are at a target of 24-hour operations for linguists and 
translators working those documents. And we do have the funding 
available to pay for the 24-hour operations.
    One of the things I would point out, though, is the bulk 
numbers of boxes are not necessarily indicative of the effort. 
It is a very targeted kind of effort. In many cases, we know 
where those documents came from, and so there's a triage on the 
front end that prioritizes their efforts. And so the areas 
where we would logically find WMD materials move to the front 
of the line and so the backlog and the timeline is far shorter 
for those more profitable areas of exploration.
    Chairman Roberts. My time is expired. I apologize to my 
colleagues, but I note that the Director would like to say 
something.
    Director Tenet. Mr. Chairman, in terms of Arab linguists, 
let me just note that ISG in total has about 320 Arab 
linguists. About 220 of those are sitting in the docex facility 
doing this work. So in terms of--it's a fairly formidable 
capability that Admiral Jacoby has assembled.
    Admiral Jacoby. With more personnel coming onboard this 
month.
    Chairman Roberts. Senator Warner. Oh, I beg your pardon. 
The second time around, I apologize to the distinguished Vice 
Chairman who is now kicking me severely underneath the dais.
    Chairman Roberts. Senator Rockefeller.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    Admiral Jacoby, we didn't get the other two testimonies 
until--I didn't have them till this morning, but I did have 
yours. And once again, I have to say, like I did last year, I 
thought it was absolutely superb in its scope and what you had 
to say.
    What you just did say, however, raises a question in my 
mind. You're talking about reading of documents and the 
availability of translators--you know, the necessary Arabic 
speakers, et cetera, of different dialects to do that. It's a 
very different matter when you're going through documents than 
it is when you're dealing with human intelligence, with assets, 
with the capacity to do all the other things that have to be 
done, frankly, many of which will probably turn out to be more 
important.
    And so my question would be not just to you, but also to 
Director Tenet, because I noticed when I mentioned this point 
about being stretched thin, that the Director nodded his head a 
little bit.
    It's my impression, in just doing some unclassified 
reading, that with the switches that are being made in Baghdad 
and elsewhere, that there are a lot of rather junior people 
coming in, a lot of retired people being lured back into the 
service and that the Arabic question remains huge for your 
purposes.
    Director Tenet. Sir, I would, say that, obviously, language 
capabilities is something we're working on very hard. I mean, 
we've tripled the number of Arabic speakers in the last three 
years and we won't go into foreign language programs here.
    But the point is I think there was a newspaper story that 
was recently written about Baghdad and Pakistan and it was----
    Chairman Roberts. George, can you pull that microphone 
right up?
    Director Tenet. The truth is that you're asking a 
priorities question, and here's the way we're working the 
priority question. The war on terrorism absolutely has to be 
unaffected by what we do on anything else. So that's covered 
and Iraq has now created a very large drain of people and 
resources.
    The issue is not in terms of Iraq, or in terms of the war 
on terrorism, or in terms of proliferation, or let's say 
another country that we care about a great deal. The issue for 
us will be global coverage against other issues, where the 
truth is we are moving people against the highest priorities. 
And there are issues we're going to have to deal with very, 
very smartly.
    You say we're bringing a lot of older people back. Well, 
we've had a designated reserve cadre now going back four or 
five years; that number's been constant as we bring, as you 
know, more people into the clandestine service and the 
analytical workforce to match youth and inexperience. And we're 
just going to have to do it this way and balance our priorities 
carefully.
    Vice Chairman Rockefeller. Thank you.
    This is for the Director and for the Admiral. I mentioned 
that the United States--we basically invaded Iraq as a reason 
because of our concern about the presence of weapons of mass 
destruction and also the question of links to al-Qa'ida and 
other terrorist organizations.
    It now appears, at least to this Senator, that Iran 
actually had closer links to dangerous terrorist organizations, 
such as Hizbollah and al-Qa'ida, as well as much more advanced 
WMD capabilities, than Iraq did. So how would you compare, the 
two of you, the threat posed by Iran today with the threat of 
Iraq WMD and links to terrorism that you described to this 
Committee last year at this time? Is Iran a grave and gathering 
threat?
    Director Tenet. Well, sir, I think that we've documented 
year in and year out the Iranian ballistic missile program and 
what they've acquired from the Russians and the deployment of 
the Shahab-3 and the development and deployment of longer-range 
missiles. And certainly, in classified closed testimony we've 
talked to you over the years about our concerns about their 
nuclear program.
    With regard to the Hizbollah relationship, that's not new. 
We've talked about Iranian support for Hizbollah for years.
    I think, you know, there are two different sets of issues 
involved in terms of what policy responses people might choose. 
And they are very, very different in this regard. So it's an 
apples and oranges on a gathering situation where there was a 
great deal of concern about in terms of what we didn't know, 
what we were deceived and denied about. And so there was a high 
probability impact in terms of what was being denied to us that 
caused us a great deal of concern.
    In the Iranian case, I think there's been steady work and 
understanding of the Iranian phenomenon, both on the nuclear 
and the ballistic missile side, and in the classified context 
that we've talked to you over the years on chemical and 
biological weapons as well, that Iranposes problems, to be 
sure, things that we've talked to you about consistently year in and 
year out. What you do about them and what policy solutions you choose 
is up to you and others to decide.
    Admiral Jacoby. Senator, I believe the same in terms of the 
capabilities discussion.
    I think one thing that's more crystal clear to us this 
year, although it would have been projected last year, is the 
hardliners and reformists situation. I think it's very clear 
coming out of the elections that the reform movement has lost 
momentum, lost steam. And so we need to be putting the 
capabilities discussion in the context of continued hardline 
leadership.
    Director Tenet. Senator Rockefeller, can I make just one 
other point on this?
    Vice Chairman Rockefeller. Yes, because I would like it--I 
have two seconds left.
    Director Tenet. I'm sorry.
    Vice Chairman Rockefeller. Simply because it seems to me 
you're both avoiding the obvious question that I'm asking: What 
it looks like today, what it looked like a year ago, what would 
you do? You say, ``Well, let's slough it off to the 
policymakers.'' That's a little harder argument to make these 
days than it was before.
    Director Tenet. Well, sir, I would say that what we're 
doing with Iran today--and you've got an IAEA relationship, 
that's a positive thing. I think we need to work through that, 
in terms of since they've opened up and are giving us data, and 
they're complying. That's an important way to get at their 
nuclear program.
    There's a difference in terms of the two societies. If 
you're going to look, you know, Iran has a society that had two 
elections, had a reform movement, has a political dialogue, has 
a certain amount of openness to it. So when you contemplate the 
fact that 63 percent of the Iranian population was born after 
1979, with a new generation, it's a complicating issue in terms 
of how you juxtapose that kind of a society that's trying to 
reform. And while the reformers may be in tough shape, we don't 
want to dissuade them from picking up and continuing what, 
obviously, is a discredited clerical rule, when they may go 
forward in the future. There's a difference between a very 
closed society and an open society with a political dialogue.
    So there are very big differences, notwithstanding advances 
on nuclear issues and on support for terrorism that we've 
documented for years.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Warner, I've recognized you 
twice. The third time's the charm.
    Senator Warner. Thank you very much. I've been waiting 
patiently.
    I wish to commend you all on your statements, gentlemen. I 
think they were strong, positive statements reflecting within 
the Executive branch the strongest of support for your 
individual and collective endeavors on the war against 
terrorism.
    We have as a nation, nevertheless, suffered some degree of 
loss of credibility. It's debatable. I think it's going to be 
recoverable in the end, but in the meantime, has this in any 
way affected your ability to make contacts within nations other 
than the traditional governmental contact with your 
counterparts? Has the support of your counterparts been 
noticeably lessened? And has your ability to make your own 
independent contacts with other sources of intelligence 
lessened in any way?
    We'll start with you, Director.
    Director Tenet. No, sir. I would say that if we look at an 
example, whether it's the war on terrorism or contacts with our 
foreign counterparts on proliferation, no, sir, nobody has 
changed their attitude toward us. People are as cooperative as 
they've been. We're working toward a common framework. Many of 
our colleagues saw it the same way we did. And so, no, I see no 
diminution in the willingness of people who work with us in 
intelligence channels to get our job done.
    Senator Warner. So the professionals have stayed out of the 
fray of the political exchanges, particularly with some of the 
nations in Europe, and you feel that your contacts with those 
counterpart agencies are as strong as ever?
    Director Tenet. Sir, notwithstanding political 
differences----
    Senator Warner. Yes.
    Director Tenet [continuing]. Our relationship with our 
European colleagues is very, very strong. And even in cases 
where there are very big differences politically, terrorism 
is--for example, we have very big differences of view with the 
French on policy issues, for example, but on terrorism 
excellent cooperation across the board.
    Senator Warner. I think that's reassuring.
    Director Mueller.
    Director Mueller. I would agree. Over the last couple of 
weeks, I've had opportunities to meet with counterparts from 
France, Germany. Yesterday I met with the German Interior 
Minister. Our relationships have been excellent with him over 
the last couple of years. They are still superb with our 
counterparts in Germany and France. Our relationships could not 
be better, regardless of what else happens.
    Admiral Jacoby. Senator Warner, my counterparts, if 
anything, are coming forward with more offers of cooperation 
and more opportunities as we seek them out, so, no sir, no 
problems.
    Senator Warner. Director Tenet, the Armed Services 
Committee had the opportunity to hear from Dr. Kay. And I've 
also had a long discussion with General Dayton and Dr. Duelfer 
before he departed.
    Can you assure this Committee that particularly your agency 
and that of the Department of Defense are giving the strongest 
of support to continuing the search for weapons of mass 
destruction under the Iraq Survey Group?
    Director Tenet. Yes, sir, I was out in Baghdad last week 
and I can tell you that it's as strong as ever and there's a 
very good reason----
    Senator Warner. Of resources and people and the like?
    Director Tenet. Yes, sir, that was absolutely the case. 
There was a lot of work going on out there. They're doing a 
great job. I had the pleasure to meet with them and talk to 
them. They're generating a lot of leads. They're working on a 
lot of issues and cooperation is very good.
    Senator Warner. Director Mueller, under your jurisdiction 
comes the seaports of America. We're very proud to have a very 
large one in my state. I didn't hear in your opening statement 
any particular emphasis on working with the local authorities 
and other agencies of the government in giving us the maximum 
protection for those ports which particularly are highly 
vulnerable to terrorist attack.
    Director Mueller. Senator, I would tell you, wherever we 
have a seaport that is a potential target, our Joint Terrorism 
Task Forces work exceptionally closely with our counterparts at 
the federal level but also at the state and local level. In 
some cases--I'm not certain--actually I think in Virginia 
Beach, particularly in that area, there have been extraordinary 
measures. By extraordinary I mean measures above and beyond 
just the Joint Terrorism Task Force----
    Senator Warner. I'm acquainted with that.
    Director Mueller [continuing]. That are taken to assure the 
protection of those seaports. So we have the basic level, the 
Joint Terrorism Task Force, but in many of our areas we have 
enhanced cooperative efforts.
    Senator Warner. Good.
    Admiral Jacoby, with reference to Haiti, it's a rapidly 
transitioning event there. What is the probability that this 
country couldonce again experience the exodus from that nation 
seeking refuge on our shores in the event that the instability 
progresses at a rate that it's now, I think, just about on the brink of 
capitulation? Would you give us a more in-depth survey about Haiti and 
the problems of the boat people again?
    Admiral Jacoby. Senator, the northern half of the country 
basically now has been--police posts and other government 
facilities have been abandoned.
    We're watching closely for any preparations for exodus, 
sir. And I can report to you at this point that we have not 
seen that, nor any typical signals, in terms of moving of boats 
and so forth in the northern part of the country. We haven't 
seen that yet. But it is certainly a concern and it's a focus 
of attention.
    Senator Warner. Director Tenet, the conflict between Israel 
and the Palestinian people continues to, I think, fuel a lot of 
discontent in that area of the world, including far reaches 
into the situations in Iraq, Syria and otherwise. To what 
extent can you assure this Committee that your agency is doing 
everything it can to work toward the success for the program 
laid down by our President, the road to peace?
    Director Tenet. Well, sir, we're obviously and have been 
intimately involved in the past, but I must honestly tell you 
that we need two partners to come together to give us the 
ability to do much. And right now we do not have two parties of 
equal mind or capability or will.
    So quite frankly, we're watching this from a very important 
intelligence-gathering dimension, maintaining our contacts with 
both sides. But in truth, we need the Palestinian Authority to 
step up. We need people to come to the table to work with us to 
exert a willingness. We've laid down specific reform plans for 
those services, their consolidation under a single leadership, 
a minister of interior who reports independently to a prime 
minister. We need more help in this regard to really get back 
to the point where we did the work we did in 1998, 1999, 2000. 
We're not there right now, Senator.
    Senator Warner. Well, that's a frank assessment. And I wish 
to commend you personally for the manner in which you've met 
the challenges here recently, Director Tenet. They've been 
quite significant.
    Let's move, then, to Syria. I thought we'd have more 
emphasis on that situation because the tentacles of that nation 
are very disturbing as it relates to our situation in Iraq and, 
to some extent, Iran. Could you expand on that?
    Director Tenet. Sir, I'd like to talk about Syria more 
extensively in closed session, if I could.
    Senator Warner. All right.
    Director Tenet. Obviously, the border between Syria and 
Iraq is something that concerns me.
    But I've got some things I'd prefer to talk about in closed 
session. And, obviously, there are proliferation matters here, 
there are matters about the continuing harboring of Palestinian 
rejectionist groups whose public relations outfits may have 
been shut down but the operations haven't been shut down. So 
there's a whole slew of issues to talk about here.
    Senator Warner. In Afghanistan, there are many positive 
signs, but one that concerns us greatly is the continuing 
proliferation of the drug trade and the dollars that flow from 
it, which are fueling many of the activities in opposition to 
the coalition forces' effort to bring about a greater degree of 
democracy. It seems to me that that is not receiving the proper 
level of attention. Could you comment on that?
    Director Tenet. Sir, I'd say the following: It is an 
important issue. More important, we need to get the 
southeastern provinces along the Pakistani border and that 
security situation under control.
    While Admiral Jacoby referred to the fact that we are 
concerned about Taliban suicide attacks and attacks on soft 
targets, it is also true that the Taliban cannot operate 
against us in set military maneuvers because of what we do back 
to them.
    So we've got to sort of get reconstruction moving in the 
right direction. President Karzai, we have to be in the 
position where he offsets what people produce from narcotics 
with alternative programs. We have to clarify the security 
situation.
    And the sequence, sir, I would say, we've got to get there 
and do more, but we've got to have a sequence here that makes 
sense that results in the government spreading out broader, he 
extending his influence onto that border, with us in a better 
way and then we've got to get to narcotics. It's just a 
sequencing issue that we have to pay attention to.
    Senator Warner. Close out on Usama bin Laden: Has there 
been any lessening, in your opinion, of the efforts by our 
nation and other nations to capture him or otherwise to 
determine his whereabouts? Because that remains a very 
important issue to the American people, and there's so much 
criticism that Iraq has drained off that emphasis. I do not 
find that to be the case. I hope you can assure us that is not 
the case.
    Director Tenet. No lessening of the effort, sir.
    Senator Warner. Admiral.
    Admiral Jacoby. No lessening, sir.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Levin.
    Senator Levin. Let me ask Director Tenet first about the 
unsettled military and political situation in Iraq which is 
directly threatening our troops on a daily basis, threatens 
regional stability and American security.
    Press reports state that CIA officers in Iraq are warning 
that the country may be on a path to civil war. My question is 
this: Would the transfer of sovereignty by June 30, if there's 
no consensus on the procedures of governing between the 
transfer of sovereignty and the holding of direct elections, 
would that transfer of sovereignty be destabilizing?
    Director Tenet. Sir, obviously, this is an issue that 
they're all working on right now that I don't have enough 
transparency into. It's between the U.N. special envoy and 
Ambassador Bremer.
    Senator Levin. I'm asking you for an intelligence 
assessment.
    Director Tenet. Yes, sir. I think it's important to have a 
continuum and those agreements lashed up. I do think that 
moving to some transfer of sovereignty in the long term, with 
an idea for when elections may occur, how a transitional law, 
whatever body is elected, all of which has to be known and laid 
out in a program--and I think that will actually work to our 
benefit.
    Senator Levin. And if there is no such agreement before the 
transfer of sovereignty, then what?
    Director Tenet. Well, sir, at this moment, the civil war 
scenario, it's obviously something we watch very carefully.
    But given what I said in my statement about what I see as 
the increasing coming out of Sunnis, their interaction with 
Shias, I think Iraqis understand, particularly with the kind of 
jihadists targeting against Shias that's been exposed, this is 
not a road they want to go down.
    Senator Levin. There have been a number of compliments to 
Dr. Kay here today and before. Do you agree with Dr. Kay's, 
your chief weapon inspector, statement that the consensus 
opinion is that the two trailers that were found were not 
intended for the production of biological weapons? Do you agree 
with him?
    Director Tenet. No, sir, there is no consensus on that 
question.
    Senator Levin. What is your opinion?
    Director Tenet. Well, sir, we have two bodies----
    Senator Levin. And what is your opinion?
    Director Tenet. At this moment, I'm sitting right in 
themiddle of a big debate. I have analysts in my building who still 
believe that they were for BW trailers. I have Defense Intelligence 
Agency analysts who have posited another theory. And the community has 
not--we don't have enough data, and we haven't wrestled it to the 
ground yet.
    Senator Levin. Vice President Cheney just a few weeks ago 
said the following, that those trailers were, in fact, part of 
the biological weapons program and that he deems them 
conclusive evidence that Saddam, in fact, had programs for 
weapons of mass destruction. Do you agree with Vice President 
Cheney?
    Director Tenet. Well, sir, I talked to the Vice President 
after my Georgetown speech. I don't think he was aware of where 
we were in terms of the community's disagreement on this. I've 
talked to him subsequent to that. I've explained the 
disagreements. I've told him that there's one side that thinks 
one thing and one side that thinks another thing. So, in 
fairness to him, I think he was going off of an older judgment 
that was embodied in a paper.
    Senator Levin. Was that older judgment the one that is 
still on your Web site?
    Director Tenet. Yes, sir.
    Senator Levin. Why is it still on your Web site?
    Director Tenet. Sir, we just keep adding. We had a piece of 
paper at a moment in time. We've added David Kay's piece of 
paper. I've put my Georgetown speech on it. For transparency 
and giving people a sense of where we are at any moment in 
time, I think it's a good thing.
    Senator Levin. What is the Intelligence Community's 
assessment of whether or not 9/11 hijacker Mohammed Atta met 
with Ahmed al-Ani, an alleged Iraq intelligence officer in Iraq 
in April of 2001?
    What is your assessment?
    Director Tenet. Sir, I know you have a paper up here that 
outlines all that for you. It's a classified paper. My 
recollection is we can't prove that one way or another. Is that 
correct?
    Senator Levin. The Washington Post says that the CIA has 
always doubted that it took place. Is that correct?
    Director Tenet. We have not gathered enough evidence to 
conclude that it happened, sir. That's just where we are 
analytically in the----
    Senator Levin. It's not correct, then, that you doubt that 
it took place?
    Director Tenet. Sir, I don't know that it took place. I 
can't say that it did.
    Senator Levin. All right.
    Last November, the Weekly Standard published excerpts from 
an alleged classified document that was prepared under 
Secretary of Defense Feith's leadership. It was dated October 
27, 2003. This document was sent to the Senate Intelligence 
Committee. It alleged an operational relationship between Iraq 
and the al-Qa'ida terrorist organization. It's become quite a 
cause celebre.
    Did the Department of Defense consult with the CIA before 
sending that document to the Senate Intelligence Committee?
    Director Tenet. Can I just check, sir? I don't know myself.
    Senator Levin, I have to take it for the record. There's no 
precise knowledge sitting behind me at this point.
    Senator Levin. Relative to the uranium allegation, the 
allegation that Iraq was seeking uranium in Africa, you took 
personal responsibility for the error----
    Director Tenet. Yes, sir.
    Senator Levin [continuing]. In the State of the Union 
address----
    Director Tenet. I did.
    Senator Levin [continuing]. Even though you had apparently 
personally urged the NSC Deputy Director, Stephen Hadley, not 
to make that claim a few months earlier.
    And my question to you is this: A week before the State of 
the Union address, President Bush submitted an unclassified 
report to Congress on January 20, 2003. In that document, he 
said that Iraq had failed to explain its ``attempts to acquire 
uranium.'' So it's not just that that statement was made in the 
State of the Union message; it was made in a very visible 
public way in a report to Congress, which the President was 
required to file pursuant to the legislation authorizing him to 
proceed to war.
    My question to you is whether or not the CIA cleared that 
January 20 document.
    Director Tenet. Sir, I do not know and I'll take it for the 
record and get back to you.
    Senator Levin. Are you familiar with the document?
    Director Tenet. Personally, no.
    Senator Levin. Thank you. My time is up.
    Chairman Roberts. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for your testimony and time this 
morning.
    Director Tenet, I want to refer in your testimony to the 
specific area that you addressed regarding economic development 
in Iraq. And if I may read from your testimony, you noted: ``By 
next year revenues from oil exports should cover the cost of 
basic government operations and contribute several billion 
dollars toward reconstruction. It is essential, however, that 
the Iraq-Turkey pipeline be reopened and oil facilities be well 
protected from insurgent sabotage.''
    My questions are these. First, this is a----
    Director Tenet. I'm sorry, sir. What page are you on? I 
apologize.
    Senator Hagel. I'm working off of page 10 on the draft. 
It's a draft. I don't know where it is in yours.
    Director Tenet. Yes, sir.
    Senator Hagel. My first question is, this is the first time 
I have seen in writing from any Administration officials 
reference to ``contributing several billion dollars toward 
reconstruction.'' The Foreign Relations Committee, other 
committees that I sit on and I'm aware of up here have not had 
the opportunity to explore that reconstruction possibility. In 
fact, we have been told that, most likely, the oil revenues 
would cover just operating costs. Now you're saying that it 
would add several billion dollars.
    I want to address that as well as that you rightly 
appropriately note that that's contingent upon the Iraq-Turkey 
pipeline reopening and the security of those facilities. If you 
could also address where we are on the reopening of the 
pipeline, what are we doing to address your very important and 
significant point that these oil revenues are absolutely 
contingent upon the two factors.
    Director Tenet. Sir, on the where we are on the pipeline, 
I'll just have to come back to you. I have an expert here who I 
know knows this and we did believe when we wrote this that it 
would have a contributing effect toward reconstruction. That's 
at least our analytical judgment. Now, if we're off by that, 
we'll come back but I don't think we have a different view.
    I can't take you much farther than what I've said, sir.
    Senator Hagel. Okay. Director Tenet that's fine and you'll 
provide then answers for the record on all the points.
    Also, I noted in your testimony on a couple of occasions, 
you referenced--I believe this is from your statement--
``managing Kurdish autonomy in a federal structure.'' I then 
assume that means that the accepted position of the 
Administration is that, in fact, Kurdistan is going to be an 
autonomous region.
    Director Tenet. Sir, actually, that's all being negotiated 
on the ground in terms of what those provisions are going to 
look like,how much decentralized authority and control the 
Kurds may or may not have. And at this moment, it is an issue, and I 
posit it as an issue, but Jerry Bremer and the people on the ground are 
working on this right now. So I just raise it as something that is out 
there that has to be dealt with and I don't know where the process will 
end.
    Senator Hagel. So, as far as you know, that decision has 
not been made that, in fact, Kurdistan will be an autonomous 
part of a federal system.
    Director Tenet. I think this is a product of very fluid 
discussions and negotiations on the ground. All I do is raise 
the issue and say this is something that has to be dealt with. 
And I can't really posit where they are today.
    Senator Hagel. Thank you.
    On Afghanistan, picking up on a question that Chairman 
Warner addressed, the doubling of opium production--which is 
not good news for any of us, doubling of opium production last 
year--what's your analysis of elections? And I would also be 
interested in Admiral Jacoby's answering this question as well.
    Director Tenet. Well, sir, the first thing I would say is 
that the loya jurga that was recently concluded was very 
successful by anybody's account. Karzai did extremely well. 
Fahim Khan, his Vice President, is backing him strongly. That's 
important from the Panjshiri concept, from that context, to 
make sure that there's unity between two communities of 
different stripes even if there's--I don't know--there's been 
some reporting that suggests there might be slippage in the 
election process because of mechanical issues.
    One of the other things that I say in my statement is while 
warlords are something that Karzai has to deal with, they 
appear disunited. He appears to have a good strategy to think 
about dealing with them.
    And as these PRT teams--these reconstruction teams that 
NATO gets in the country--starts to get out and extend the writ 
of the government through assistance, it's going to make this 
all better. So reconstruction--we have to keep our eye on the 
reconstruction ball and move it forward.
    Karzai appears to be the most popular man in the country, 
and we'll see. But what's come out of this loya jurga process 
is the most hope for this country in many, many years.
    Senator Hagel. I've gotten--and I do want to get your 
comments, Admiral Jacoby--but I've gotten as recently as two 
days ago assessments from people on the ground and officials 
who know about what's going on over there--very significant 
reports of intimidation, which I know you have factored into 
your thinking on this, especially with intelligence--and if you 
want to go deeper into that this afternoon----
    Director Tenet. If we're talking about Taliban-based 
intimidation----
    Senator Hagel. As well as other intimidation to hold people 
back.
    Director Tenet. The shift in strategy is away from set 
pieces in fighting us to going after NGOs, softer targets and 
suicide operations. So this is an issue that we have to deal 
with, because this is the most effective way for them to 
operate against us and thwart this change. Particularly in the 
southeastern provinces, the concern is that this kind of 
activity wedge its way up into Kabul. Now you're talking about 
singletons who can do things.
    So this is something we're very mindful of. This tension 
exists. There's no doubt about it. I don't want anybody walking 
out of here thinking Afghanistan is totally safe. It's in a 
heck of a lot better place than it was. But the Taliban 
remnants operating over the Pakistani border into Afghanistan, 
back and forth, is still an issue that we are dealing with 
quite hard.
    Senator Hagel. I even received reports regarding the north 
on this, as well.
    But, Admiral Jacoby, would you----
    Admiral Jacoby: I second what the DCI just said, that last 
part being the key part from our standpoint; the ability to 
establish that stability and keep the reconstruction efforts on 
track is absolutely the key from our standpoint.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    Chairman Roberts. Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    I want to welcome all of our witnesses here today.
    Director Tenet, you mentioned in your speech at Georgetown 
that the analysts never said there was an imminent threat with 
respect to Iraq. In the National Security Strategy that was 
issued back on September 17, 2002, the President outlined his 
strategy of preemption, and noted that, ``When the threat is 
imminent, the nation has the right to conduct preemptive 
operations.''
    Obviously, from the President to the Vice President to 
Secretary Powell and so on, words such as ``grave threat,'' ``a 
danger that is grave and growing,'' ``a serious and mounting 
threat,'' ``continuing threat''--if it wasn't an imminent 
threat in your mind, how would you have characterized or 
assessed the threat at that point in time?
    Director Tenet. I would have characterized it as something 
that was grave and gathering, something that we were quite 
worried about--quite worried about the nature of surprise.
    One of the second key judgments we've said in our National 
Intelligence Estimate is that we are very worried about what we 
don't know, not on the short side, but our concern was that, 
through deception and denial, there was much that we did not 
know.
    And given the history of deception and what the U.N. didn't 
find and his pattern of activity, our concern was that these 
programs--in fact, we state quite clearly in our estimate--
these programs have gotten bigger, that he has chemical and 
biological weapons.
    So that the risk calculus, I think, that you carry forward 
to a policymaker who then has to think about all this is: Can I 
be surprised? I have been surprised previously. What do you 
want to do about it?
    Senator Snowe. And so you would agree with the 
characterizations that were made by the President, the Vice 
President, Secretary Powell, in that respect, but not with the 
National Security Strategy that was issued in September 17, the 
basis of preemption?
    Director Tenet. I've just characterized, Senator Snowe, 
characterized what I think and how I was thinking about this at 
the time. I haven't parsed everybody's words and I don't want 
to do that.
    Senator Snowe. Well, no, because you made a very explicit 
statement on that and obviously I think it sends, you know, a 
mixed message. I was going back and reviewing exactly who said 
what when and I think that is important for all of us to put it 
in context. And I notice that the National Security Strategy 
did include the basis for a preemptive action was an imminent 
threat. So we're talking about either parsing words, nuances, 
what's immediate as opposed to imminent.
    Director Tenet. Or where are you going to be surprised and 
how soon are you going to know, and when you're surprised, are 
your options limited for what you may want to do about it?
    And that's always, I think--I don't want to go over into 
the policymaker's venue here, but I think from our perspective 
one of the things we have always worried about--and the history 
matters here. Surprised in 1991 about a nuclear weapon, 
consistently surprised about what he didn't--well, not 
surprised, but fully knowledgeable about things that he never, 
as UNSCOM left in 1998, fully documenting things they could not 
document.
    And then we had things like procurement activities that 
caused us concern that were clearly intended to deceive and 
deny, reconstruction of dual-use facilities that caused us 
concerns, and we'll talkabout this next week when we talk about 
it in closed session, but there were clear evolutions based on things 
that people were quite worried about, notwithstanding the fact it 
wasn't all perfect and we always obviously know we're looking at the 
tradecraft now, but there's a historical context here of how we've 
thought about this fellow that goes back eight or nine years and that's 
the context we tried to bring to it.
    Senator Snowe. Now, I understand that. But in terms of 
policymakers, that makes it extraordinarily difficult. When you 
start nuancing words--and you were right in saying, you know, 
intelligence is an inexact science; I think we all agree with 
that. Therefore, calibrating the threat in the types of words 
that are used become ever more important under that scenario.
    Director Tenet. Yes, ma'am, but I will also say that, you 
know, whether it stands up or it doesn't stand up over the 
course of time is something we're going to look at quite 
carefully.
    When you look at the key judgments and what we said, we 
said he had chemical and biological weapons. We said that with 
high confidence. We talked about mobile production facilities. 
We ascribed confidence levels. But we said things quite 
assertively in our key judgments that caused the policymaker to 
have and look at this thing in a way that he or she had to 
assess risk.
    Those are just the facts as we know them today. We can go 
back and, of course, we will and look at all of this work. And 
make judgments about did we word everything carefully, did we 
have the right context and everything. That's appropriate. We 
need to go do that as professionals.
    But that's the context.
    Senator Snowe. I'm just wondering then, would you think 
that we then took this action on Iraq on a lesser standard than 
imminent?
    Director Tenet. Well, I don't want to go back--see, now 
we're into a realm of what all the policymakers were thinking 
about this. And I don't want to go back and parse their words. 
But I think what we looked at--for example, there was a 
question raised with me when we talked about this once before 
where the question was raised: Isn't Kim Jong Il a more 
immediate threat than Saddam Hussein is? And my answer at the 
time was Kim Jong Il's progress in the developing of these 
weapons have left us with little option to deal with him in a 
very complicated environment.
    If you go back and look--for example, let's just look at 
where we are today, for purposes of the argument. If you go 
back and look at--just look at, I know to date we didn't find 
chemical and biological weapons. Look at the ballistic missile 
program and in fact we were dead on in terms of where that was 
going.
    So let's posit for example that, as David Kay did in his 
interim report, that if he had seed stocks, he could quickly 
surge to produce biological weapons with a ballistic missile.
    Now, what do you do about that? Do you do something about 
it now or do you wait for it to get more difficult? And that's 
the conundrum we faced our policymakers with.
    They made a choice. We're looking, obviously care a great 
deal about how right and how wrong we were. I've said it's 
either going to be all right or all wrong. And we've never been 
on the ground like this before to figure it out, 
notwithstanding the fact that we're going to find places, to be 
sure, where we could have done a better job in our own 
tradecraft in assessing some of this. But that's the real 
conundrum people were left with.
    Senator Snowe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Chambliss?
    Senator Chambliss. Thank you, Mr. Chairman.
    Director Tenet, there's a media story out this morning 
that's generated a lot of emotion in folks and it's the one----
    Director Tenet. On my part, too, Senator.
    Senator Chambliss [continuing]. One relative to a name that 
was supposedly provided to the CIA by the Germans on one of the 
individuals who I believe flew into the south tower.
    Director Tenet. Sir, what I'd like to do in open session is 
say to you, first, go back to page 186 of the Joint 
Intelligence Committee Open Study and then go back and look at 
your classified report, what you did with the House 
Intelligence Committee and the JIC inquiry--go back and look at 
page 186, and then go look at the classified piece of paper in 
your classified report.
    And then what I will tell you is, in 1999, the Germans gave 
us a name, Marwan--that's it--and a phone number. And we didn't 
sit on our hands and I'm not going to go through the rest of it 
in open session. They didn't give us a first and a last name 
until after 9/11, with then additional data. And let me just 
leave it there.
    But I would urge you go back and look at your unclassified 
and classified report, because that's as far as I want to go 
here.
    Senator Chambliss. Well, you've confirmed what my sources 
have indicated to me, and that is that this was really 
piecemeal, kind of, information that was given to us. Prior to 
9/11, we did not have, as this media report indicates, the name 
of an individual and the telephone number of an individual and 
asked by the Germans to follow that individual. Is that a fair 
statement?
    Director Tenet. Sir, sir, I'm going to be careful in open 
session.
    You got a name, named Joe, and here's the phone number--
Joe's phone number, no last name. And we did some things to go 
find out some things, okay. We can give this all to you, okay. 
We never conclusively got there because we didn't have enough, 
but we didn't sit around.
    But I would urge you to go look at your classified page on 
this. Take a look at it. That's all I want to say in open 
session.
    Senator Chambliss. Director Mueller, I was pleased to hear 
you talk about your Office of Intelligence that you've created. 
And with reference to that, you talked about the increase in 
translators that you have and the increase in analysts. Now, 
have you moved those people in there? Do you feel comfortable 
with where you are from a resource standpoint with regard to 
operating this Office of Intelligence from a intelligence 
gathering, translating and analyzing standpoint from a real-
time perspective?
    Director Mueller. Let me say the '04 budget, once it was 
passed, gave us substantial additional resources that we are 
bringing on board this year. We made some requests also in the 
'05 budget. It is an ongoing process.
    I wouldn't say we're where we want to be at this point, but 
we've made substantial strides. And the monies accorded to us 
by Congress and the Administration will, by the end of this 
year, give us the cadre of analysts that will bring us a great 
deal closer to our goal.
    Senator Chambliss. And as you and Director Tenet and 
Admiral Jacoby know, I have been very focused on this issue of 
information sharing. And with relevance to this Office of 
Intelligence, what is your relationship with CIA and DIA as 
well as NSA relative to sharing of that information back and 
forth with that office?
    Director Mueller. There was one part of the previous 
question I didn't answer and that was with regard to linguists. 
There are certain dialects we still have problems with, but we 
have doubled, if not tripled, our linguists in a number of the 
Middle Eastern languages. So we're on the way to success there.
    In terms of information sharing, the Office of 
Intelligence, under Maureen Baginski, is an element of it. But 
the information sharing is at all levels of our organization. I 
get briefed at 7:15 in the morning. I get a briefing at 5 
o'clock. And at those briefings, I have individuals from the 
CIA, DHS, sitting in in my briefings. I have an FBI senior 
supervisorsitting in at George's meetings.
    We have had over the last couple of years what the 9/11 
commission has called ``transnational intelligence 
operations.'' That is where we have operations that may have 
come to the attention of the Agency overseas which have 
tendrils within the United States. And we have put together 
teams to address them and done it exceptionally successfully.
    The exchange of information from the top down to the ranks 
between our two organizations is far better than it was before 
September 11, and is truly remarkable.
    The advent of the TTIC, the Terrorist Threat Integration 
Center, and some other mechanisms that allow our analysts to 
sit together and share information from our various databases 
has also contributed to that sharing of information.
    I'm not certain--I can say we're not where we ultimately 
want to be. There are things that we are still doing, in terms 
of communications with other agencies, communications with 
state and local, but we've made substantial strides.
    And I might let George add to that from his perspective, if 
you give me that opportunity.
    Director Tenet. I think that the power of the integration, 
Senator Chambliss, particularly in TTIC, where now you're going 
to have 14 databases--there are FBI criminal files, there are 
CIA operational traffic, in addition to data from all other 
places--coming together in one place for purposes of doing 
threat analysis is an unprecedented development.
    Now, to be sure, we have a long way to go to achieve 
everything we want to achieve, but from where we were in 
setting up this organization to where we are today, and then 
when you look at what we're doing across the community, 
particularly with FBI and the Intelligence Community, I think, 
you know, Senator Rockefeller asked the question, ``Are we 
safer today?'' Yes, we are, in this regard, because of the 
advances that we've made. You know, you can't protect against 
everything but we're in much better shape than we've ever been.
    Senator Chambliss. Are those computers talking to each 
other as well as people talking to each other?
    Director Mueller. There are communications systems that are 
talking to each other, yes.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Mr. Tenet, I'm going to follow up on what Senator Snowe 
began. Of the key judgments in the unclassified version of the 
NIE, I want to read three and then I want to ask you what your 
judgment is today about these three.
    The first is that ``Baghdad has chemical and biological 
weapons.'' That's right at the top. The second is, ``Baghdad 
has begun renewed production of chemical warfare agents, 
probably including mustard, sarin, cyclosarin and VX.'' And the 
third is, ``All key aspects--R&D, production and 
weaponization--of Iraq's offensive BW program are active and 
most elements are larger and more advanced than they were 
before the Gulf War.''
    What is your view of these judgments today?
    Director Tenet. Yes, ma'am. I want to go back to what I 
said at Georgetown because I did give provisional judgments in 
that speech on each of these.
    Senator Feinstein. No, I'm asking for your view--the 
Intelligence Community's view today. Are these in the hands of 
someone else? Were they nonexistent then? Are they hidden? What 
is your best judgment today?
    Director Tenet. Well, I have to tell you I don't want to 
guess, but I think that we are still looking with ISG on the 
ground.
    Let me give you an example. When David Kay first came back, 
he came back and told us about clandestine BW research 
facilities, controlled by the Iraqi Intelligence Service, that 
we didn't know anything about. Now the question for us is: What 
does that mean? Are there production facilities that the IIS 
controlled? And the truth is, we're still working through 
people and documents. And at this point, I tried, in the speech 
I gave, to convey where I thought we were.
    But what we will do when Charlie Duelfer raises his hand 
and says that's about as much as we can do, we have to write 
another National Intelligence Estimate that will take all of 
this data on board, inform them about what we found and ask our 
analysts to say, what would you say today on the basis of all 
the data that you have at your disposal?
    We have not yet said take the initial October 30 report--or 
whenever he was here--and said rack and stack these against 
your judgments--what would this have done if you'd known about 
all of these BW finds; what would this have done to your 
judgments at the time? We simply haven't done that yet.
    Senator Feinstein. Well, I'm one for whom this is very 
difficult, because there are very positive judgments made in 
this report and we all know what the result has been. And, you 
know, people voted to authorize use of force based on what we 
read in these reports.
    And I think when we send our military out and find nothing 
and then Dr. Kay goes over and finds nothing, for the 
Intelligence Community, I guess you believe something's going 
to materialize. In terms of weaponization and deployment and 
then finding nothing, it's a pretty bitter pill to swallow with 
respect to the value of intelligence, particularly in a 
preemptive war.
    Director Tenet. Well, Senator Feinstein, we're going to 
talk about this more next week. I'm now looking at all of this, 
as you are looking at all of this. As a professional, I care 
about whether we're right or wrong, how we did our tradecraft, 
what we believe.
    Analysts sat down, and the three individuals, primarily our 
National Intelligence Officer, who wrote this have been doing 
this for a very long time. They believe what they wrote. They 
didn't do it cavalierly, and they didn't do it frivolously and 
they believe they had a connective logic and a tissue to get 
them to their judgments.
    So I believe you have to keep working and looking. I 
believe you have to know whether this material may have slipped 
over a border or fallen into somebody's hands or may be used by 
insurgents against us at some point. We have a responsibility 
to keep doing this. And we really didn't take charge of this 
until July. We're spending a lot of money, and we've got a lot 
of people doing it. But from a professional perspective, we 
darn well better know, one way or another, and be damn honest 
about it at the end of the day because we have that 
responsibility. And that's how we feel about it.
    Senator Feinstein. Thank you. I'd like to continue that 
this afternoon.
    Director Mueller, good morning.
    Director Mueller. Good morning.
    Senator Feinstein. The PATRIOT Act gave your agency new 
authorities, both as a law enforcement agency and an 
intelligence agency. I'd like you, just briefly, to outline how 
you're using these authorities, particularly those which help 
you work as part of the Intelligence Community, such as 
information sharing, and if you could identify any gaps that 
remain that need strengthening.
    Director Mueller. Let me start with the principal benefit 
of the PATRIOT Act to our efforts to protect against another 9/
11 has been the breaking down of walls between the Intelligence 
Community and the law enforcement community.
    Not all of the breaking down of those walls is attributable 
to the PATRIOT Act. Some of it is attributable to the decisions 
of the Foreign Intelligence Surveillance Act Court. Now, prior 
to September 11, the exchange of information between the 
Intelligence Community and thelaw enforcement community was 
inhibited by statutes and by court rulings and the like. The PATRIOT 
Act has broken down those walls. Now, the law enforcement community can 
share intelligence with the Intelligence Community. Since 9/11 and 
thanks in part to the PATRIOT Act, the Intelligence Community can share 
intelligence with the law enforcement community.
    Our biggest threat in the United States is, as Mr. Tenet 
pointed out, from groups from overseas who plot overseas, who 
plan overseas, who finance from overseas and then send 
operatives into the United States to carry out an attack.
    In order to be successful against these groups, we have to 
share the information. We have to share the information from 
whence it may come, and whether it comes from the intelligence 
side from the Agency or DIA, and be able to have the 
decisionmakers, the policymakers have in front of them the 
information from the Intelligence Community, as well as that 
which we may have developed in the law enforcement community in 
the United States. And the PATRIOT Act has assisted us in doing 
that and has made us safer.
    There are other relatively minor provisions of the PATRIOT 
Act that we can discuss at a later date, but that is the 
principal benefit of the PATRIOT Act.
    There are certain other issues that were not addressed in 
the PATRIOT Act. We have the lone terrorist, not affiliated 
necessarily with a foreign government or a foreign 
organization, that remains a threat and which we need some 
legislation on. That legislation is pending. But that is 
basically an overall view of the PATRIOT Act and I think one of 
the principal pieces of legislation that we are seeking.
    There is one other area, I will tell you, that has been 
discussed. And that is the issue of subpoenas and our ability 
to get information swiftly in a terrorist investigation. Now, 
quite often we are compelled to use national security letters, 
which are letters that we give to a telephone company, a credit 
card company, where we need information relating to a terrorist 
investigation.
    And these national security letters have nothing behind 
them. There is no judicial process. And all too often we find 
that there are companies that just say, we'll get to it when we 
want to get to it. It's down at the bottom of the line. And our 
concern is often this information, whether it be a telephone 
toll or financial information or credit card information, is 
too important to have under that scenario.
    So one of the things that is being addressed is our request 
for administrative subpoena authority, which we currently have 
when it comes to addressing narcotics traffickers, for 
instance. And so the argument is if we have that authority for 
narcotics cases--drug cases--doesn't it make some sense to have 
comparable authority when it comes to terrorist cases.
    Senator Feinstein. Thanks very much. My time is up.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman. I thank 
the witnesses for appearing today and for your service to our 
country.
    Director Tenet, it is rare when speculation comes face to 
face with facts, but that's what has happened in Iraq. The 
speculation and supposition that led up to our invasion now 
must face the certainties and near certainties that we have 
uncovered after spending ten months or more on the ground in 
Iraq.
    In the words of Dr. Kay, ``It turns out we were all 
wrong,'' wrong, I might say, in looking in retrospect, about 
the nuclear weapons and weapons of mass destruction, their 
numbers, their location, their threat. It is now declassified. 
I mean, we're as specific as saying: Here are the most likely 
sites you will find weapons of mass destruction in Iraq. And 
Dr. Kay has said there was nothing there.
    We were wrong about the al-Qa'ida connection, which was 
alleged before our invasion of Iraq. We were wrong in 
speculating about the Iraqi reaction to our invasion, the 
flowers in the gun muzzles and things that just didn't happen. 
We were wrong about the nature, the complexity, the timetable 
and the cost about rebuilding Iraq.
    There are only two possible conclusions that I think we can 
reach. And if you have a third, please let me know. One is our 
intelligence operations failed in a historic way in accurately 
assessing the threat in Iraq and what would happen after we 
deposed Saddam Hussein or, secondly, that our political leaders 
misled the American people in the build-up to the war. That is 
a very grave assertion, particularly in a democracy.
    If the government misleads the governed in something as 
basic and grave as war and the sacrifice of American life, 
there can be no more serious charge made in a democracy.
    Now I've read your Georgetown speech. And I've tried to 
compare it and to figure out which side we come down on here, 
whether or not those who assert that intelligence failed that 
led to these wrong conclusions or those assert that 
intelligence didn't fail, the politicians just misstated what 
we told them. Let me go to two specifics. You say on page six 
of your Georgetown speech, basically, we didn't find chemical 
or biological weapons.
    Director Tenet. Yes.
    Senator Durbin. All right, I'll give you that. We've gone 
to the identified locations, we found nothing, we've come up 
empty. On September 19, 2002, Secretary Rumsfeld told the 
Senate Armed Services Committee, ``We should be just as 
concerned about the immediate threat from biological weapons; 
Iraq has these weapons.'' Now, that directly contradicts what 
you said at Georgetown. You said that we haven't found these 
weapons, we don't have these weapons. Secretary Rumsfeld said 
that Iraq has these weapons. And then you said in the 
Georgetown speech: The Intelligence Community ``never said 
there was an imminent threat.''
    September 28, 2002, President Bush, in his radio address, 
``The danger to our country is grave and it is growing. The 
Iraqi regime possesses biological and chemical weapons, is 
rebuilding the facilities to make more and, according to the 
British government, could launch a biological or chemical 
attack in as little as 45 minutes after the order is given.''
    We can't have it both ways. If you were accurate in the 
information you gave to this government, then how in the world 
can we justify these quotes from the highest elected officials 
in our land before this war?
    Director Tenet. Senator, you've raised a bunch of issues 
and I'd like to----
    Senator Durbin. Please.
    Director Tenet [continuing]. Try and walk through some of 
them with you. First of all, I've now worked in two 
Administrations: Democrat and Republican. I've looked at 
statements about Iraq going back 10 years, so I'm not going to 
go to people's statements. I'm going to focus on the 
intelligence and what we said and what we didn't say and how we 
believed it.
    First of all, I would say to you is it's true at my 
Georgetown speech, if you go back and look at Dr. Kay's interim 
report, he said we haven't found weapons. Obviously, I said we 
haven't found weapons. Obviously we said we judged that he has 
chemical and biological weapons. We also said very clearly in 
the National Intelligence Estimate that in the BW arena it's 
bigger than it was during the Gulf War. I also argued for 
patience. I also argued that it is incumbent upon us to work 
through this to find out whether we were all right and all 
wrong, because we know on the missile side that we were 
generally right on the mark. We did better against the UAV 
programs. We know that he maintained clandestine BW research 
facilities.
    If you go back and read David Kay's interim report, the 
punch line of course was: We haven't found weapons. And after 
being in Baghdad last week and talking to the men and women of 
ISG, they continue to have leads, they continue to have people 
come to them. And for the purpose of understanding as 
professionals whether we were right or wrong, and how we did 
this, we need to find out.
    Senator Durbin. May I ask you this question: If we are 
going to subscribe to a policy of preemption, then we have to 
prepare ourselves to invade countries before it is clear that 
they're an imminent threat. And the only way you reach that 
conclusion is from intelligence. Now we look at the body of 
information gathered by our intelligence agencies leading up to 
the invasion of Iraq, and with hindsight we say we missed the 
mark.
    How can you build a policy of preemption on intelligence if 
we were so wrong in the lead-up to the invasion of Iraq? We 
will all concede Saddam Hussein is a bad man, and I'm glad he's 
out of power. But many more arguments were made to the American 
people to justify this invasion. And it turns out that the bulk 
of them were just plain wrong--either bad intelligence or 
misleading the people.
    How can we fight a war on terrorism or have a policy of 
preemption based on what we have just lived through in Iraq?
    Director Tenet. Well, sir, you're fighting a war on 
terrorism very successfully because of intelligence. You got a 
country called Libya to disarm because of intelligence. You got 
A.Q. Khan, who I said last year in my public testimony was the 
biggest purveyor of nuclear weapons that we had to worry 
about--although I didn't name him--and we've dismantled that 
network because of intelligence.
    We understand that the North Koreans were pursuing an 
alternative route to an nuclear weapon using highly enriched 
uranium because of intelligence.
    Now, we're not perfect, but we're pretty damn good at what 
we do. And we care as much as you do about Iraq and whether we 
were right or wrong. And we're going to work through it in a 
way where we tell the truth as to whether we were right or 
wrong.
    But at the end of the day, we followed this for eight, 
nine, 10 years. We had deep concerns about the history, the 
deceit, what he didn't give the U.N. And, as I said in my 
Georgetown speech, we worked hard after 1998 to resuscitate 
sources, and the record was mixed, and we made judgments on a 
narrower band of data. This is a tough business.
    Senator Durbin. Mr. Tenet, I'm out of time, here. And I'll 
just say this: At some point, we have to reconcile the things 
that you've said and the things that were said publicly by the 
Administration. And where they are in conflict, someone has to 
be held accountable. And I don't know if it'll be done today; 
not likely. I don't know if it'll be done by this Committee; I 
hope so. But at some day, in this open form of government, we 
have to reconcile this clear conflict.
    Chairman Roberts. Has the gentleman finished?
    Let's see. I can assure the gentleman, as the Chairman of 
this Committee, that we will continue the thorough job that we 
have done and that as soon as we can work with the intelligence 
agencies in regard to issuing a public report, we will do so. 
And that commitment has been ongoing from the first.
    I'm also interested in the various quotes by Members of 
Congress a year ago, 18 months ago, two years ago, in the 
previous administration, many of which were more declarative, 
more aggressive and more specific than what the Directors 
indicated or anybody in the Administration.
    So this is a widespread or this is a wide net out here, in 
regards to the so-called use of intelligence. That will all be 
dealt with, and it will all be made public. I'd like to yield 
now to the distinguished Vice Chairman for any additional 
questions he might have.
    Vice Chairman Rockefeller. Mr. Chairman, thank you. I have 
two.
    And I apologize, but this is important to me. I started out 
my statement today just simply by saying that I'm wrestling, 
trying to decide whether the world is safer today than it was 
when we met a year ago.
    Director Tenet, you said that cross-information, 
information-sharing is a lot better. Of course, that's one 
piece. That is not a complicated question. You, all three, deal 
in different ways with that matter every day. It's either, I 
think, a yes or it's a no, not for the purposes of securing an 
answer from you but for the purposes of, as a nation, facing up 
to the truth and what, therefore, how therefore, we're able to 
lead our people and influence our people into doing what is 
going to be necessary to do to make sure that we are safer in 
the event that we are not.
    So my first question is, I would repeat the question: Are 
we safer today in this country than we were when we met a year 
ago? I'd ask all three of you, briefly. I think it's a one-word 
answer.
    Director Tenet. Yes. I'll start with yes.
    Director Mueller. Yes.
    Admiral Jacoby. Yes, sir.
    Vice Chairman Rockefeller. Okay. Director Tenet, have you 
read Admiral Jacoby's testimony?
    Director Tenet. I have not had a chance.
    Vice Chairman Rockefeller. Okay. In it, he says, ``Support 
for America has dropped in most of the Muslim world. Favorable 
ratings in Morocco,''--this won't go on long--``favorable 
ratings in Morocco declined from 77 percent in 2000 to 27 
percent in the spring; and in Jordan, from 25 percent in 2002, 
to 1 percent in May of 2003. In Saudi, expressing confidence in 
the United States, they dropped from 63 percent in May of 2002, 
to 11 percent in October of 2003.''
    Now, you have just answered that the world is a safer 
place, all three of you, and with one word. Would you agree 
that there is some conflict that we need to be thinking about 
seriously in a bipartisan fashion, professionally, as people 
who deal with intelligence and care about and love our country, 
with the fact that these enormous declines of support give hint 
to the creation, as two of you have put in your testimony, the 
creation of a world of increased jihadist activity.
    And, as you indicated, Director Tenet, at the end of your 
testimony you addressed this whole question of poverty and all 
that. You did it very well, as you always do, Admiral. And the 
whole question of more fertile breeding grounds for radical 
political Islam is very much on us.
    Now, these are impacts which don't necessarily change your 
answers because they have not all yet happened. But if they are 
in the process of happening--people are becoming radicalized, 
want to kill Americans more, wherever that might be, or those 
who support Americans--how does that differentiate or separate 
itself from a world being more safe?
    Director Tenet. The way you differentiate it, Senator, is, 
for example, let's pick a place like Morocco. See, part of this 
is what people think of us, and part of this is what people are 
doing inside their own governments to reform their governments. 
Look at a place like Morocco, where they're committed to 
greater economic reform, opening the society to women. You look 
at a place like Jordan in terms of recently signing a free 
trade agreement, the kind of educational and economic 
opportunities the King is trying to bring to the country.
    So all of this, yes, we are outlining for you this movement 
that I'm talking about that you have to go conquer, half of 
this--or defeat--or bring people from alienation to believe 
that the society that they live in offers them educational 
opportunities and a way out and, therefore, not make them 
recruitable. But it's the process of reforming some of these 
societies, their movement to change their own internal dynamic.
    I mean, what's interesting in the Middle East is we are 
sometimes--polling data's interesting--but we are sometimes 
themanifestation of their feelings about their own society and their 
own government and the fact that there is governments who are aligned 
with us.
    So there's an equal push on our part to look at all these 
people and say, you've got to get on with the process of 
reform. You've got to get on with the process of economic 
opportunity. And this is a dynamic process.
    And somehow, there isn't an American who's going to counter 
a Salafist message worth anything. Somehow people also within 
those societies are going to have to counter those messages 
clerically and with their acts and their deeds, because what 
we're doing in the war on terrorism is quite tactical.
    We know how to run them down. We know how to build better 
mousetraps. We know how to bring things together. We're just 
chasing many people all the time. And we're doing it better and 
better all the time.
    But the back-end strategic help for us is not solely--
certainly not an intelligence issue, but something that we warn 
and talk to you about in our papers, to get people to 
understand that somebody has to get at the business of 
attacking this phenomenon.
    Vice Chairman Rockefeller. And I would agree with that. I 
would also suggest that for every two or three or four or five 
countries that you can name, I can name about 20 where things 
are going in precisely the opposite direction.
    Director Tenet. Yes, sir.
    Vice Chairman Rockefeller. And I'm raising this question 
not to try to score points, to put you on the point, but to say 
we have to be honest with ourselves as professionals who deal 
in this field in that we know that these--in Saudi Arabia, good 
luck. They're making some changes. How long?
    Indonesia--you just go around the world. And we are 
deceiving our people if we don't let them know how tough a 
fight this is going to be. And I think that is what I wanted to 
hear from you. And I think that you've done it in conventional 
ways, but not in ways that----
    Director Tenet. Well, sir, I think in my statement, I mean, 
I apologize here. I didn't mean to interrupt you. But I think 
in my statement when I tried to give you the sense, because 
we're talking to the American people here, I know it's great 
that we've done great work against the central al-Qa'ida 
leadership, but there's a very important concept. We are still 
at war against a movement that we're going to have to get 
after.
    And just because we've been successful at preempting and 
stopping an enormous amount of loss of life here and around the 
world, there's still an enormous amount of sacrifice required 
if we're going to stay at this. People who say that this is 
exaggerated don't look at the same world that I look at. And 
there's going to be an enormous amount of continued focus and 
attention required on this issue. It's not going away any time 
soon.
    Admiral Jacoby. Senator, if I could, that was exactly the 
reason that I put it in my testimony. This is about the 
potential, it's about the long-term, it's about the kinds of 
things that we need to, as an Intelligence Community, put our 
attention and resources and skill mix against because I think 
you asked the question over the last year. What I'm trying to 
lay out in the testimony is the environment that exists and the 
activity by nation states and other movements to deal with this 
issue. And we're in this for the long haul. And it's a major 
issue, sir.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman. I just have a 
couple of questions also.
    Director Tenet, I want to go back to Senator Durbin's 
point, because I think it is a valid point and it's certainly 
been the object of where most of the criticism with reference 
to Iraq has been directed.
    Now, after the Gulf War in '92, we know that he possessed 
weapons of mass destruction. We knew at that point in time that 
he had used those weapons of mass destruction. We have 
interrogated individuals, we've made the searches throughout 
Iraq, and we have not found either evidence of destruction or 
disposal of the weapons that we knew he had following the Gulf 
War, nor have we found evidence of possession of weapons of 
mass destruction that may have been manufactured in the 
interim, 10-year, 12-year period, whatever.
    Now, with your experience in the Intelligence Community, 
can you draw any conclusions from those two relative to what 
may have happened to either the original weapons that he 
possessed or weapons that may have been manufactured subsequent 
to the Gulf War?
    Director Tenet. Sir, look, there are three or four things 
we have to--one, when you're talking about the kind of 
magnitude of things you're looking it, you're looking at things 
where you're talking about particularly BW capability; it fits 
in people's garages. So we're not looking at big bulk things 
that you're going to find quite easily.
    Did some of the stuff go over borders? I don't know. Some 
people have posited that it went here or went there. I don't 
know the answer to that question.
    Am I surprised that, for example, given the fact that we 
warned our military to be prepared to deal with chemical 
weapons, that we haven't found chemical weapons, yes, I am 
surprised, because we certainly believed that he would use 
those weapons if the regime was at risk. That's what we 
posited--regime risk and the warning to our military. You know, 
this is a great mystery to me.
    And one of the things we have to do quite professionally is 
look at this and try to figure out what happened here. And 
we'll find out. We may have come to different judgments. All 
I'm saying is, this Intelligence Community and the people that 
did this work didn't have any outcome in mind. They did it 
honestly. This is what they believed. And you're going to look 
through it, and we're going to look through it. And we're going 
to find things that--we're going to find warts. For sure, we're 
going to find things that we think could have been done better.
    At the end of the day, we're going to have to ask ourselves 
the question of do you think they made reasonable judgments, 
and do you think they could have come to different conclusions? 
And we need a little bit of time and patience to figure all 
that out.
    I wish I could tell you I knew the answer to your question. 
I don't.
    Senator Chambliss. Is that part of what the investigative 
team that's still within Iraq is looking for?
    Director Tenet. Yes, sir.
    Senator Chambliss. You're going to wish you'd never given 
that speech in Georgetown by the time we finish dissecting it. 
[Laughter.]
    But in that speech you made the quote on an issue that we 
have talked about over and over again. And that is, you said 
that we did not have enough of our own human intelligence. We 
had difficulty penetrating the Iraqi regime with human sources.
    Now, we've talked about this in private sessions, but what 
can you tell us today for the American public to be able to 
understand were the difficulties, number one, in penetrating 
the Iraqi regime and what efforts did you make to penetrate 
that regime?
    Director Tenet. Well, sir, after 1998 when we lost the 
U.N., we obviously realized that because of our intimacy and 
involvement with the U.N.--which has since been blown in public 
and everybody knows it--when we were on the ground, we 
recognized that we had to reconstitute our own unilateral 
capability. It's an effort that Charlie Allen, who you know, 
launched on my behalf as the Associate Deputy Director of 
Central Intelligence.
    And here's the bottom line on the HUMINT side. Yes, we 
recruited a number of people that are all on the periphery. His 
scientists and the people that you cared about never came out. 
We never got access to them in a way that would have been 
beneficial. And essentially, we didn't have our own, kind of, 
unilateral access that we would have all liked--not because of 
a lack of effort, but because of how he ran this target, how 
closely he controlled this society.
    But at the end of the day, my judgment was we didn't have 
enough of our own. So let's not make any excuses and get on 
with it. And we had other HUMINT and we had liaison reporting 
and we had defector reporting, all of which is--some of which 
was very interesting and compelling to us. As much as we used 
that kind of data in terrorism or other issues, we don't 
dismiss people; we vetted it. Some of it, we're finding today, 
there were discrepancies, and such is the nature of this 
business.
    Go look at what happened in the pre-war run-up and take a 
look at the quality of HUMINT and support to the military. You 
know, this is excellent across the board. And General Franks 
would say so and General Abizaid would say so. Different 
environment, different tactics, different strategy, and that's 
where we are, sir.
    And you know, as I know, when I said in the speech we're 
rebuilding our HUMINT capability, it by no means means that 
we're there yet. I mean, we went through, as I said--you know, 
when I first became Deputy Director, there were 12 people being 
trained. Nobody looked at recruiting. Nobody looked at the 
infrastructure. Nobody much cared about it, as near as I can 
tell.
    And we've come all the way back to put ourselves in a very 
healthy situation that we're going to need another five years 
of creativity and support to really get the country back to 
where it needs to be. There's no simple shortcut here.
    Senator Chambliss. And what date in time was that when you 
became Assistant Director?
    Director Tenet. 1995, I think, sir--1996, some time. It's 
been so long.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Durbin.
    Senator Durbin. Thank you.
    I'd like to ask both Director Mueller and Director Tenet 
about a concern I have. And that is that we have as our goal 
the integration of various agencies and cooperation of these 
agencies. In fact, we created the Department of Homeland 
Security in an effort to integrate and coordinate at a higher 
level. And now, in his January State of the Union address, the 
President announced the establishment of the Terrorist Threat 
Integration Center to coordinate threat information among FBI, 
CIA, and Department of Homeland Security, merge, and analyze 
information collected domestically and abroad.
    In September of 2003, the President issued a directive 
creating the Terrorist Screening Center, which has a mandate to 
develop and maintain, to the extent permitted by law, the most 
accurate and current information possible about individuals 
known or suspected of being involved in terrorism.
    The Terrorist Threat Integration Center is in the CIA. The 
Terrorist Screening Center is out of the FBI.
    And I asked Director Ridge the other day, Secretary Ridge, 
did you lose the battle at the table? Weren't you supposed to 
be the coordinating group? When they gave out stove pipes, did 
you lose? Were you gone that day? Tell me, how are you working 
to coordinate what apparently, or to most people on the 
outside, you'd think would all be together in one place that is 
now in separate agencies?
    Director Mueller. Well, let me start if I could, and make 
an initial distinction between collection and the analysis 
function. There are people that say one big integrated agency 
is what we want. With integration, you therefore will have the 
pulling together of all these dots that everybody's looking 
for. But when it comes to collection within the United States, 
traditionally and for very good reasons, the FBI has been a 
collector. When it's overseas, it has been the CIA.
    When you take a subject matter such as terrorism, which 
requires the bringing together of the information that has been 
collected by the CIA and collected by the FBI, because it's a 
transnational intelligence challenge, there has to be a 
mechanism both on the operational side as well as on the 
analytical side to pull it together.
    And what the Terrorist Threat Integration Center does, on 
the analytical side, is take the information from both of our 
agencies and analyze it, not collect but analyze it with access 
to all of our databases so that you can do a search.
    Currently, within the various databases by the persons we 
have assigned from the various agencies, including the 
Department of Homeland Security, if you've got a subject, you 
want to do an analytical product, you want to analyze a threat, 
you have access to all the intelligence information that has 
been gathered by the various agencies.
    When it comes to the other agency that you mentioned, the 
Terrorist Screening Center, the purpose of the screening center 
was two-fold. First of all, it is to take the various lists 
that were in a variety of different components and assure that 
you have a list that has names on it that have been vetted with 
properly being on that list, because things happen if you are 
on that list. And so it's a put-together list of those that 
have an association with terrorism.
    But the second part of it also is when somebody comes in 
through the border or somebody comes to our attention, there 
has to be follow-up on it. In the United States, it is the 
joint terrorism task forces that are responsible for doing the 
follow-up on a person who is on that list.
    Senator Durbin. That suggests what we hope will be 
achieved; and that is the coordination of different agencies 
and the coordination of this information.
    Now, Director Mueller, your inspector general's audit at 
the end of December was troubling--and I'm sure you read it--
when he talked about what he found at the FBI. He said the 
FBI's efforts--and this is on the FBI's efforts to improve 
sharing of intelligence and information--and he stated, ``The 
process for disseminating intelligence was ad hoc and 
communicated orally from manager to staff. One CIA detailee 
characterized the informal process as disorganized, noting that 
information does not flow smoothly within the FBI, let alone 
externally. In the eight months the CIA detailee had been at 
the FBI, the detailee said, `Information goes into a black hole 
when it comes into this building.' ''
    Director Mueller. Well, a couple of things about that. 
Senator, I'd like to go back. Number one, it was done some time 
ago, and we've made tremendous changes since then.
    Senator Durbin. This is a report of December 2003.
    Director Mueller. I know, but the work that went into that 
report was done some time ago.
    But I think that is perhaps--and I'd like to go and look at 
the report because I don't have it in front of me. But I don't 
think that is an accurate description of where we are. We are 
not where we want to be, but we are well on the way there in 
terms of integrating intelligence and information within the 
FBI, as well as in our efforts to disseminate it throughout the 
Intelligence Community.
    We did not have, prior to September 11, something called a 
reports officer. We have put out, since September 11, to the 
Intelligence Community in excess, I think, of 2,000 reports 
now. They're not only reports that go out throughout the 
Intelligence Community, but also reports that are used 
internally within the FBI.
    I would take exception to that portion of the report that 
you have read. I think we've made tremendous strides. As I've 
indicated before in answer to previous questions, we have the 
Office of Intelligence. I have Maureen Baginski, who has come 
over from the NSA, as the headof the Office of Intelligence to 
make certain that we increase our ability to share the information 
within the FBI, but also without or outside the FBI.
    I don't think that is a fair characterization.
    Senator Durbin. Would you be kind enough to respond, then, 
if you would, in writing to that report from your inspector 
general?
    Director Mueller. Absolutely.
    Senator Durbin. Thank you.
    Chairman Roberts. Admiral Jacoby, you and your analysts 
have done, I think, an outstanding job in keeping myself and 
this Committee informed of our ongoing efforts to find out what 
happened to Captain Scott Speicher. I want to thank you for 
that.
    Could you give us an update on the current status of this 
effort in terms of trying to ascertain his fate?
    Admiral Jacoby. Yes, Mr. Chairman. First, I looked at the 
most recent notification that came to Congress and it is still 
basically up to date. There are a relatively small number of 
active leads still being pursued by the ISG in Iraq. There's 
still some forensic work being done by FBI laboratories on the 
beam with the initials on it and some other materials which 
have been brought back. And we don't have a final report from 
them.
    It remains an active case. As I have promised you all the 
way through, our assumption is that we will continue to look 
for Captain Speicher as if he is alive until such time that we 
find out otherwise. And that's where we are, sir.
    Chairman Roberts. I truly appreciate that. I think it's not 
only on his behalf, but for every man and woman who wears the 
uniform.
    Director Mueller, in a speech in New York, December 19, 
2002, you stated, ``Worldwide we have prevented as many as 100 
terrorist attacks or plots including a number here in the 
U.S.'' In the year since you made that statement, or years now, 
how do you assess the terrorist threat to the U.S. homeland? 
Has it simply increased or diminished or we're doing a lot 
better? You know, where are we?
    Director Mueller. Well again, this goes back to Senator 
Rockefeller's question of are we safer today than we were a 
year ago or two years ago?
    Chairman Roberts. But has the threat increased or 
diminished or changed?
    Director Mueller. I think the threat has changed because of 
the taking away of the sanctuary of Afghanistan, because of the 
taking away of a number of their principal leaders. I think the 
threat has changed to the extent that it is much more 
fragmented. It is fragmented throughout the world. And we 
cannot look at a relatively organized structure, hierarchy, 
within al-Qa'ida and expect that to be the nucleus of the 
planning for future attacks.
    What we can anticipate is that various groups around the 
world with a desire to kill Americans, whether it be overseas 
or within the United States, may be planning, may be going to 
persons who were loosely or perhaps even closely affiliated 
with al-Qa'ida for the technical training on the explosives or 
the financing, but are basically random players throughout the 
world.
    And it is a changed threat, in my mind, to the United 
States, no less of a threat than we had perhaps a year ago, 
perhaps a more significant threat. But we are safer because of 
the actions that have been taken against al-Qa'ida and the 
actions that have been taken by Homeland Security, by the FBI 
and by the CIA and by others within the United States.
    Chairman Roberts. Director Tenet, I'm going to paraphrase, 
since everybody else seems to be or has a penchant of quoting 
things in the press. Basically I'm paraphrasing from Chairman 
Goss of the House Intelligence Committee in statements that he 
has made or allegedly made--I'll call him up and apologize 
later. In regards to 1998 on, upwards to Iraqi Freedom and the 
kickoff of that, one of the things that the Chairman indicated 
was everybody said we should have connected the dots, we should 
have done better in regards to the NIE. But he indicated that 
there were not many dots to connect.
    And you had, sort of, alluded to that in regard to our 
collection assets, in regard to HUMINT, in regard to MASINT, in 
regard to SIGINT, that we had to go back in and reconstruct 
from '98 on what UNSCOM was doing. And I'm extremely concerned 
about that, given the priority that Iraq had received by all of 
our national security experts.
    Could you, sort of, comment on that, in regard to whether 
or not Chairman Goss pretty well nailed it on the head?
    Director Tenet. Well, I don't know, since I'm testifying in 
front of him this afternoon, I don't know that I want to take 
him on in open session. Let me go back, Senator, for the record 
and give you my view of it, Okay?
    Because it's that internal access that was most important. 
Obviously, you've got imagery, and you've got signals 
intelligence, which were important to us. But it's the internal 
access piece that I think is the piece that created the 
greatest perturbation in our coverage here and our knowledge. 
So let me come to you for the record and give you my sense of 
it.
    Chairman Roberts. I appreciate that. I'm going to ask you 
one other question, and then I know you want to go to lunch.
    Has the Intelligence Community noted any increase or any 
diminution of Cuba's support to terrorism since September 11, 
2001?
    And the second part of it is, what is the likelihood that 
the resumption of U.S. trade with Cuba could hasten the 
economic and political reform in Cuba?
    Director Tenet. I'd respectfully take those for the record, 
sir.
    Chairman Roberts. All right. Thank you for coming. The 
hearing is closed.
    [Whereupon, at 12:52 p.m., the Committee adjourned.]

</pre></body></html>
